<html>
<title> - EXAMINING THE INCREASE OF GANG ACTIVITY IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 111-263]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-263
 
       EXAMINING THE INCREASE OF GANG ACTIVITY IN INDIAN COUNTRY

=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
54-590                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 30, 2009....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Franken.....................................     4
    Article, dated August 6, 2009, from Native American Times....     6
Statement of Senator Johnson.....................................     3

                               Witnesses

Cowboy, Sampson, Executive Director, Department of Public Safety, 
  Navajo Nation..................................................    46
    Prepared statement...........................................    48
Mousseau, Hon. Hermis John, Chairman, Tribal Judicial Council, 
  Oglala Sioux Tribe; accompanied by Paul Iron Cloud, CEO, Oglala 
  Sioux Housing Authority and Paul Forney, Gang Specialist, 
  Oglala Sioux Department of Public Safety.......................     9
    Prepared statement with attachments..........................    11
Nissen, Hon. Brian, Council Member, Confederated Tribes of the 
  Colville Reservation; accompanied by Matt Haney, Chief of 
  Police, Colville Tribe.........................................    41
    Prepared statement...........................................    42
Smith, Carmen, Chief of Police, Warm Springs Tribal Police 
  Department; accompanied by Bill Elliot, Detective..............    50
    Prepared statement...........................................    53

                                Appendix

Cantwell, Hon. Maria, U.S. Senator from Washington, prepared 
  statement......................................................    65
Cook, Robert B., President, National Indian Education 
  Association, prepared statement................................    68
Elliott, William V., Detective, Warm Springs Tribal Police 
  Department, letter to Carmen Smith.............................    84
Puyallup Tribe, prepared statement with attachments..............    71
Ragsdale, W. Patrick, Director, Office of Justice Services, 
  Bureau of Indian Affairs, U.S. Department of the Interior, 
  prepared statement.............................................    67
Response to written questions submitted by Hon. Byron L. Dorgan 
  to:
    Hon. Hermis John Mousseau....................................    90
    Carmen Smith.................................................    91
Shuravloff, Marty, Chairman, National American Indian Housing 
  Council, prepared statement....................................    87
Wyden, Hon. Ron, U.S. Senator from Oregon, prepared statement....    65


       EXAMINING THE INCREASE OF GANG ACTIVITY IN INDIAN COUNTRY

                              ----------                              


                        THURSDAY, JULY 30, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I will call the hearing to order. This is a 
hearing of the Indian Affairs Committee in the United States 
Senate.
    I am pleased to welcome the newest Member of our Committee 
today, Senator Al Franken from the State of Minnesota.
    Senator Franken, welcome to our Committee and we look 
forward to working with you.
    Senator Franken. Thank you. Thank you, Mr. Chairman. I am 
honored.
    The Chairman. The Committee is meeting today to discuss the 
increase of gang activity in Indian Country, resulting from a 
series of reports that have been released recently. I do want 
to say that I believe we are going to have four votes starting 
somewhere around 3:00 or 3:15 this afternoon. We have four 
witnesses at this hearing, and I expect that we will probably 
complete within about an hour. And we appreciate very much 
having the witnesses join us.
    In recent months, we have received detailed testimony about 
the public safety crisis that exists on many of our 
reservations across the Country. As you know, tribes face an 
epidemic of domestic and sexual violence against women. Reports 
indicate that more than one in three Native American woman will 
be raped or sexually assaulted. Two in five will suffer from 
domestic violence.
    Many reservations face violent crime rates that are 
multiples of the national average. In my State of North Dakota, 
the Standing Rock Sioux Indian Reservation had a violent crime 
rate of 8.5 times, not double, triple or quadruple, but 8.5 
times the national average in 2008.
    If you are part of a population with a violent crime rate 
8.5 times the rest of the Country, you don't feel very good 
about your daily life. Safety is very important. And the fact 
is, the Congress has not done its job. We have signed the 
treaties. We have made the promises. We have a trust 
responsibility to provide for law enforcement on these 
reservations, and frankly, we have fallen short.
    We are trying very hard to put together a piece of 
legislation dealing with law enforcement. John Harte, our 
Policy Director, Allison Binney, the Staff Director of our 
Committee, Dave Mullon and others from our Committee have been 
around the Country meeting and visiting with Indian tribes, 
Indian leaders and members of tribes to talk about this crisis 
and what we can do to address it.
    Past reports have noted that reservation gangs, gang 
activity, were relatively unorganized, and the crimes were 
limited. But these crimes are escalating, and on June 30, just 
weeks ago, of this year, the Department of Justice reported 
that ``native gangs'' are now involved in more violent offenses 
such as sexual assault, gang rapes, home invasions, drive-by 
shootings, beatings, and elder abuse.
    I recently held a field hearing with Senator Kyl in the 
State of Arizona. At that hearing, a tribal leader testified 
that 55 drive-by shootings had occurred on her reservation of 
8,000 people in one year.
    The Committee has also received testimony that non-Indian 
gangs are exploiting the lack of police presence and complex 
jurisdiction that exists in Indian Country. When you have a 
reservation such as the Standing Rock Sioux Reservation that I 
have just described, straddling North and South Dakota, and 
that reservation, the size of the State of Connecticut, has 9 
or 10 police officers to do 24/7 law enforcement, it does not 
work.
    It means that a serious crime in progress with a call to 
the police may result in law enforcement showing up in an hour, 
maybe 12 hours, maybe the next day. I mean, that is the 
distance, and the few number of police officers available on 
many of these reservations.
    The average native gang member is 15 years old and getting 
younger, and police report that gangs use Indian children as 
young as eight to carry drugs and be involved in gang 
activities to avoid prosecutions.
    The American Indian youth are at the bottom of nearly every 
national indicator of well being. Indian kids commit suicide at 
twice the rate of the general population, but in the Northern 
Great Plains, it is much, much higher than that, in some cases, 
five and ten times. The reservation I just described, the 
Standing Rock Sioux Tribe, since January 1 of this year has had 
11 suicides and 51 suicide attempts.
    We are trying very hard to address these issues. As I 
conclude, I want to just show two photographs. Native youths 
are turning to gangs, we are told. They do that, we are told, 
to fill a void in the form of protection or family or in some 
cases have no other alternatives.
    These are two photographs of American native teenage boys 
involved in gang activity at the Pine Ridge Reservation. 
Councilman Mousseau will expand on these photos, I am sure. 
These are very stark images. One teen is holding an assault 
weapon, the other receiving a gang-related tattoo. These are 
lost boys. They have no direction, and the end result of their 
path is violence.
    This violence erupted on the nearby South Dakota 
reservation two years ago when two 14 year old girls stabbed a 
15 year old girl to death in a gang-related incident. These 
senseless killings occur and this one occurred days before 
three other girls had committed suicide on the same 
reservation.
    The problem with youth violence in Indian Country is that 
it is often unpunished, and that it escalates. The offenders 
are not provided mental health because adequate mental health 
services don't exist.
    The crimes graduate then to rape and to murder, and 
frankly, we need a better response. Federal laws and lack of 
funding limit the tribal juvenile justice system. And because 
of this, tribes often rely on the Federal juvenile justice 
system and that simply doesn't work. The Bureau of Prisons 
reports that 143 juveniles in total are incarcerated in the 
Federal system; 116 are Indians. That is 81 percent of the 
Federal juvenile population.
    We need stronger tribal and Federal juvenile systems. We 
need to provide opportunities for Indian youth to deal with 
gang violence, education opportunities, treatment 
opportunities, and most importantly, a safe environment in 
which to live. Gang activity, I might say, is just one other 
symptom of a culture of violence that exists on too many 
reservations.
    I want to thank the witnesses who have traveled here today, 
and I want to thank especially all of those law enforcement 
officers who work on Indian reservations, understaffed, 
overworked, and do the best job they can in a very difficult 
circumstance.
    It is my determination that the work on this Committee is 
to try to do an Indian law enforcement bill this year. We have 
introduced it. It has broad bipartisan support. The Vice 
Chairman of this Committee, Senator Barrasso, Senator Kyl from 
Arizona and many others, including Members of the majority 
side, have worked to put together a bill. We are continuing to 
perfect it, and we hope very much to pass it in this Congress.
    I appreciate my colleagues being here.
    Senator Johnson, did you have an opening statement?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Yes, I do.
    Thank you, Mr. Chairman. I appreciate your scheduling this 
important hearing.
    I would also like to welcome Mr. John Mousseau, Tribal 
Councilman for the Oglala Sioux Tribe in South Dakota. 
Accompanying him is Paul Iron Cloud, CEO of Oglala Sioux 
Housing Authority. Thank you both for being here today. Your 
first-hand knowledge of the effects of gangs in Indian 
communities is invaluable.
    I hope this Committee works quickly and effectively to 
address the roots of violence in Indian Country. When given the 
tools to do so, our tribal leaders are capable of restoring 
civility, justice and respect in their own communities.
    Thank you and I will submit my complete statement for the 
record.???
    The prepared statement of Senator Johnson follows:]
    The Chairman. Senator Johnson, thank you very much.
    And Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Chairman Dorgan, for holding 
this important and timely hearing. This is my first hearing as 
a Member of the Committee, and I want to take a minute to 
extend my sincere gratitude to all my colleagues for their warm 
welcome. I am honored to join the Indian Affairs Committee 
which plays such an important role for our tribal communities 
all across the Country, and for the 11 tribes that we have in 
Minnesota.
    And it is a special honor to serve on this Committee on the 
same Committee that my good friend and predecessor, Paul 
Wellstone, served on.
    Chairman Dorgan, your work on this Committee and throughout 
the Senate is a blueprint for sensible and bipartisan policy-
making. I have long admired your leadership on issues important 
to rural communities and native communities, and I am honored 
to serve alongside of you.
    When I discovered that I was to become a member of this 
Committee, I noticed something about its makeup. Interestingly, 
I represent the most eastern State. The overwhelming majority 
of the 13 States represented are distinctively western. 
Minnesota is unique. The Mississippi runs through the middle of 
our State, dividing the rolling hills and deep valleys of the 
East from the open western prairie.
    In some ways, we are a western State. Up north, we have 
strong rural communities that neighbor endless miles of public 
lands. But at the same time, with our dense urban populations, 
we are also eastern. In fact, Minneapolis has one of the 
largest urban Indian populations of any American city.
    Across our State from the most rural northern corners to 
the most urban southern streets, you will find vibrant tribal 
communities. This is a unique perspective that I hope to bring 
to this Committee. So I look forward to working with all my 
colleagues to help these communities, urban or rural and on 
both sides of the Mississippi.
    Now, let me turn to the incredibly important issue that we 
take up today. Across the Country, violence is threatening the 
health of many of our tribal communities. As most of you 
remember, a few years ago the Red Lake Reservation in Red Lake, 
Minnesota suffered a heart-wrenching tragedy. On the morning of 
March 21, 2005, a tormented 16 year old boy killed his 
grandfather and his grandfather's girl friend. He later drove 
his grandfather's police car to Red Lake Senior High School, 
where he shot and killed seven people.
    But the violence that we are witnessing is not isolated on 
rural reservations or limited to an individual tormented youth. 
Two of our largest problems are the trafficking of drugs and 
the trafficking of young native women between urban areas and 
reservation land.
    The Drug Enforcement Agency reports that an increasingly 
large percentage of the cocaine distributed in Minnesota is 
done by Native American gangs. In a recent Native American 
Times article, it was noted that ``reservations offer near-
perfect hideouts and lucrative markets. They're often remote 
with few businesses and job opportunities. Selling drugs means 
easy money. Doing them means escape.'' The article goes on to 
highlight some of the ground-breaking work being done in 
Minnesota and Wisconsin to crack down on tribal crime. In 
Wisconsin, tribes have banded together to form a one of a kind 
task force that could be a template for other States to follow.
    I am very eager to hear from each of the witnesses about 
their initiatives and their programs. And I would like to ask 
unanimous consent that this article from Native American Times 
be included in the record.
    The Chairman. Without objection.
    Senator Franken. Thank you.
    [The referenced document follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Franken. Back in Minnesota and all across the 
Country, young native women are also falling victim to sexual 
crimes and increased trafficking. Sadly, women who come forward 
to report sexual violence are caught in a jurisdictional maze 
that Federal, State and tribal police often cannot quickly sort 
out.
    I am scheduled to preside over the Senate in about 20 
minutes, so I apologize for not being able to stay for the 
entire hearing, but I look forward to working with all my new 
colleagues to find new and effective ways to protect our tribal 
communities from the destructive impacts of crime.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken, thank you very much.
    Next, we will ask the witnesses to come forward. We have 
the Honorable John Mousseau, a Tribal Council Member and 
Chairman of the Tribal Judicial Council at the Oglala Sioux 
Tribe on the Pine Ridge Reservation in South Dakota; the 
Honorable Brian Nissen, the Tribal Council of the Confederated 
Tribes of the Colville Reservation in Washington State; Mr. 
Sampson Cowboy, Director, Department of Public Safety at the 
Navajo Nation in Window Rock, Arizona; and Mr. Carmen Smith, 
the Chief of Police, Confederated Tribes of Warm Springs, Warm 
Springs, Oregon.
    Let me thank all of you for joining us today. As I 
indicated, we will begin a series of votes on the Senate Floor, 
so I would ask that you would attempt to summarize your 
statements. Your entire statements are a matter of the 
permanent record. As is usually the case, we will ask the 
witnesses to summarize in five minutes, and then we will have 
questions of the Committee.
    Mr. John Mousseau, thank you for being here from South 
Dakota. I know Senator Johnson and I are very appreciative of 
your work down there. So why don't you proceed?

   STATEMENT OF HON. HERMIS JOHN MOUSSEAU, CHAIRMAN, TRIBAL 
             JUDICIAL COUNCIL, OGLALA SIOUX TRIBE; 
   ACCOMPANIED BY PAUL IRON CLOUD, CEO, OGLALA SIOUX HOUSING 
                AUTHORITY AND PAUL FORNEY, GANG 
         SPECIALIST, OGLALA SIOUX DEPARTMENT OF PUBLIC 
                             SAFETY

    Mr. Mousseau. Thank you. First I wanted to say good 
afternoon, Mr. Chairman and Members of the Committee who have 
joined us today.
    In light of my testimony, a couple of days ago we did have 
another gang-involved shooting where a young gentleman did lose 
his life. So it is an ongoing problem.
    And just to introduce myself, my name is Hermis John 
Mousseau. I am a member of the Oglala Sioux Tribal Council. I 
am also the Chairman of our Tribal Judiciary Committee. I am 
also a former Oglala Sioux Tribal Police Officer and former 
Chief of Police.
    And I want to thank you for allowing my testimony on the 
gang problem on our reservation, which to this day is still an 
ongoing problem.
    Also accompanying me here today is Mr. Paul Iron Cloud, the 
Director of Housing Authority; and also Mr. Paul Forney, the 
gang expert from the Oglala Sioux Tribe Department of Public 
Safety.
    Mr. Chairman, this issue is very important for me because 
in 2003, I was wounded in the line of duty by a tribal gang 
member when I was called to address a domestic disturbance. 
During that incident, I was forced to shoot the individual and 
memories like that live with you forever. And to this day, I 
can still remember the sound of that gun.
    Violent crime is increasing on our reservation every day. 
Just this past weekend or a couple of weeks ago, we had a 
stabbing, a shooting and person brutally attacked by a gang 
member. The week before that, on July 12, one of our female 
police officers was brutally attacked by a gang member when she 
attempted to arrest him and she was forced to shoot the 
individual in order to save her own life. Now we have blogs, 
gang tags, and open talk in the gang community threatening the 
lives of that officer and also other police officers who work 
on our reservation. So she and her immediate family had to go 
into hiding.
    This same female officer had her arm broken a year ago 
before when she attempted to arrest another known gang member 
for another domestic disturbance, and that heroic officer has 
gone through all this for a salary of $35,000 a year, with no 
health benefits and no police retirement.
    While our police department lacks the resources necessary 
to track all gang-related activity on our reservation, we have 
identified at least 39 gangs operating on our reservation in a 
community of roughly 50,000 plus members. And we have logged 
8,816 gang-related calls in the fiscal year 2008. This is up 
from 7,721 gang-related calls that we were able to log in 2006. 
These calls range from simple assaults and burglaries to life-
threatening fights and gun-related charges. Each one of these 
calls endangers the officers who respond and each one of these 
calls means that another member of our community has been a 
victim of some type of gang-related activity.
    We have now included for your information the charter of 
our gang-related offense for calendar years 2006 and 2008. And 
we have also included a youth survey which was done by one of 
our consultants in April and May of this year. Participants in 
this survey were 1,137 students on our reservation schools. The 
results of that survey revealed that 55 percent of those 
students surveyed reported being a victim of gang-related 
activity; 72 percent reported having been threatened personally 
by a gang or gang member; and only 65 percent reported that 
they felt safe from gang activity at school. Only 35 percent of 
those surveyed said they felt safe from gang-related activity 
in their own immediate community.
    So anyone that says gang activity does not impact 
educational advancement is very wrong. Gang activity started on 
our reservation because our young people were unhappy, 
powerless and bored. The joblessness and poverty on the Pine 
Ridge Indian Reservation has led far too many of our people 
towards alcohol and drugs.
    In the past few years, we have seen more outside 
lawbreakers moving onto our reservation. It is not unusual to 
see a Mexican National fall in love with one of our tribal 
members and later where they are now selling drugs out of this 
housing development house.
    Drugs are coming every day from Minneapolis, Denver and now 
Omaha. Large urban-based gangs such as the Texas Syndicate, 
Indian Mafia, Native Mob, MS-13, and Surenius-affiliated gangs 
now have members appearing on our reservation. To add to our 
fears, the Hells Angels biker gang has recently bought a bar in 
Scenic, South Dakota, less than 20 miles from our reservation 
border. Another biker gang affiliated with the Bandidos has 
been recruiting and they now have a base of operations in Pine 
Ridge, South Dakota.
    Drug trafficking on the western side of our reservation 
relates mostly to marijuana and cocaine, while meth use is 
increasing every day. Because of the remoteness of our 
reservation, its centralized location in the United States, its 
jurisdictional complexities, and lack of police manpower, we 
have become a prime target area for gang-related crime and 
trafficking.
    To talk more about those poster boards we showed, those are 
some gang members that we deal with every day. The gentleman 
getting the tattoo was a member of our Wild Boys gang and the 
guy who was giving the tattoo was a second generation gang 
member. And the other one is from one of our closer housing, 
Madison Housing, where they call themselves the AIMster 
Gangster, which is a generational gang.
    To make matters worse, all of our police officers have to 
work alone, and backup is generally at least 40 minutes away. 
We have single officers walking alone into parties with 20 or 
more intoxicated or drugged individuals, often with gang 
affiliations.
    Mr. Chairman, while we appreciate very much what you are 
trying to do to increase the BIA enforcement budget, I 
respectfully tell you that it is simply not enough. Of the 
increase proposed in 2010, we at Pine Ridge are hearing that we 
will only get an increase of $125,000. While we appreciate it 
very much $125,000 to address 8,816 or more incidents of gang 
violence, plus our 65,000 regular calls, does not go very far. 
It does not even give us one more officer per shift.
    Forgive me for speaking this bluntly, but the simple truth 
is we need more officers and we need them now. We have 5,000 
gang members, but we also have 45,000 scared law-abiding people 
whose lives I have sworn to protect. Please help me in any way 
you can to accomplish this goal. We need more personnel to 
provide youth-based prevention activities in and after school. 
We need more investigators to review and investigate cases at 
the tribal level. We also need more officers to respond to 
these calls and merely to prevent the burnout of our current 
officers.
    Finally, we need more staff in internal affairs to ensure 
that our citizen complaints are handled in a timely manner.
    I would like to ask our Housing Authority Director, Mr. 
Paul Iron Cloud, to speak just for a little bit on the impact 
the gangs are having on the daily lives of our children.
    [The prepared statement of Mr. Mousseau follows:]

   Prepared Statement of Hon. Hermis John Mousseau, Chairman, Tribal 
                  Judicial Council, Oglala Sioux Tribe
    Good Afternoon Mr. Chairman and Members of the Committee:
    My name is Hermis John Mousseau and I am a member of the Oglala 
Sioux Tribal Council. I am also the Chairman of our Tribal Judiciary 
Committee, a former Oglala Sioux Tribal Police Officer and a former 
Oglala Chief of Police. Thank you for allowing me to present testimony 
on the gang problems which are today endangering lives in my tribal 
community.
    Mr. Chairman, this issue is very personal for me because in 2003 I 
was wounded in the line of duty by a tribal gang member when I was 
called to address a domestic disturbance. During that incident, I was 
forced to shoot that individual and memories like that stay with you 
forever.
    Violent crime is increasing on our reservation every day. Just this 
past weekend, we had a stabbing, a shooting, and a person brutally 
attacked by a gang member. A week before that, on July 12th, one of our 
female officers was brutally attacked by a gang member when she 
attempted to arrest him, and she was forced to shoot that individual in 
order to save her own life. Now we have blogs, gang tags and open talk 
in our gang communities threatening the life of that officer and she 
and her immediate family have had to go into hiding. This same female 
officer had her arm broken a year before when she attempted to arrest 
another known gang member for another domestic disturbance and that 
heroic officer has gone through all of this for a salary of about 
$35,000 a year with no health benefits and no police retirement.
    While our police department lacks the resources necessary to track 
all gang-related activity on our reservation, we have identified at 
least 39 gangs operating in our community of 50,000, and we have logged 
8,816 gang-related calls in FY 2008. That is up from the 7,721 gang-
related calls that we were able to log in FY 2006. These calls range 
from simple assaults and burglaries, to life threatening fights and gun 
related charges. Each one of these calls endangers the officer who 
responds, and each one of these calls means that another member of our 
community has been a victim of some type of gang related activity.
    We have included for your information a chart of our gang related 
offenses for calendar years 2006-2008. We have also included a youth 
survey which was done by one of our consultants in April and May of 
this year. The participants in that survey were 1137 students in our 
on-reservation schools. The results of that survey revealed that 55 
percent of those students surveyed reported being a victim of gang 
related activity, 72 percent reported having been threatened personally 
by a gang or gang member, and only 65 percent reported that they felt 
safe from gang activity at school. Only 35 percent of those surveyed 
said that they felt safe from gang related activity in their own 
immediate community. So anyone that says that gang activity does not 
impact educational advancement is very wrong.
    Gang activity started on our reservation because our young people 
were unhappy, powerless and bored. The joblessness and poverty on Pine 
Ridge has led far too many of our people towards alcohol and drugs, and 
because we have no adequately funded programs or residential treatment 
facilities to address this alcoholism and drug problem, we have a large 
number of minors who live in alcoholic families and simply do not want 
to go home. This coupled with our lack of after school programs, youth 
recreation centers and youth employment monies has left many of our 
young people receptive to gang life . For young people who have never 
had a $20 bill to spend, the promise of easy money for stealing a few 
items and selling a few drugs has been hard for many of our teenagers 
to resist. Now, we have families who have three generations of gang 
members in their homes.
    Over time, as drugs have become more common, our gangs have become 
more brazen and fights over territory and drug sales has escalated. 
Today, we have gangs being formed just to protect their members from 
other gangs, and to allow their members to move freely across our 
reservation without fear of attack or intimidation. We also have gangs 
which were formed just to keep watch out for the police, so people 
could smoke a little dope and get drunk without the threat of arrest or 
attack from another gang.
    In the past few years, we have seen more outside law breakers 
moving on to our reservation. It is not unusual to see a male Mexican 
national ``falling in love'' with one of our female tribal members and 
before long he is selling drugs out of her on-reservation home. Drugs 
are coming in every day from Minneapolis and Denver, and now from 
Omaha. Large urban based gangs such as Texas Syndicate, Indian Mafia, 
Native Mob, MS-13, and Surenios affiliated gangs now have members 
appearing on our reservation. To add to our fears, the Hells Angels 
biker gang has recently bought a bar in Scenic, South Dakota less than 
20 miles away from our reservation border. Another biker gang 
affiliated with the Bandidos has been recruiting and they now have a 
base of operations in of Pine Ridge, South Dakota. Drug trafficking on 
the western side of our reservation relates mostly to marijuana and 
cocaine, but meth use is increasing every day. Because of the 
remoteness of our reservation, its centralized location in the United 
States, its jurisdictional complexities, and its lack of police 
manpower, we have become a prime target area for gang related crime and 
drug trafficking.
    But here are most telling statistics: 50,000+ people, a land base 
the size of Rhode Island, 39 gangs and 12 police officers per shift--if 
no one is sick or on injured reserve. At Pine Ridge, we receive 
approximately 73,000 calls for police service each year. That is about 
6,083 calls per month. We are forced to answer those calls with 48 
police officers. Now 48 police officers divided by 4 shifts equates to 
12 officers per shift. That means that each officer has to respond to 
506 calls per month. That is not manageable for a police officer in an 
urban area where the call is a few blocks away, but it is impossible 
for us because most of our calls are 50 or 60 miles apart. As a result, 
we have a sizable number of calls that simply go unanswered and when 
our officers can respond, our response time generally runs around 1 
hour, for even the most serious acts of violence. That means by the 
time we respond, the activity is generally over and the perpetrators 
have left the scene. The office responding would like to investigate 
what happened and arrest the people involved, but by that time he or 
she generally has another two or three calls backed up and has to leave 
to try to help someone else.
    To make matters worse, all of our police officers have to work 
alone and backup is generally at least 40 minutes away. We have single 
officers walking alone into parties with 20 or more intoxicated or 
drugged out individuals, often with gang affiliations, or with a 
subject banishing a deadly weapon and they know going in that they are 
completely on their own.
    Mr. Chairman, while we appreciate very much all that you are trying 
to do to increase the BIA law enforcement budget, I must respectfully 
tell you that it is simply not enough. Of the increase proposed in 
2010, we at Pine Ridge are hearing that we will only get an increase of 
around $125,000, and while we appreciate that very much, $125,000 to 
address 8,816 or more incidents of gang violence, plus our 65,000 
regular calls, does not go very far. It does not even give us one more 
officer per shift. Forgive me for speaking this bluntly, but the simple 
truth is we need more officers and we need them now! We have 5,000 gang 
members, but we also have 45,000 scared law abiding people whose lives 
I have sworn to protect. Please help me in anyway that you can to 
accomplish that goal.
    We need more personnel to provide youth based prevention activities 
in and after school. And we need more investigators to review and 
investigate cases at the tribal level. We also need more officers to 
respond to these calls and merely to prevent the burnout of our current 
officers. Finally, we need more staff in internal affairs to ensure 
that our citizen complaints are handled in a timely manner.
    Thank you again for this opportunity to speak to you about these 
very serious issues. I will be happy to answer any questions that you 
may have.
Attachments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Mousseau, let me get the other witnesses' 
testimony. We will come back if we have time for some comments 
from your Housing Director, if that is all right with you.
    Mr. Mousseau. Yes.
    The Chairman. The Honorable Brian Nissen, Tribal Council, 
the Confederated Tribes in Washington State. You may proceed. 
Thank you for being with us.

        STATEMENT OF HON. BRIAN NISSEN, TRIBAL COUNCIL, 
CONFEDERATED TRIBES OF THE COLVILLE RESERVATION; ACCOMPANIED BY 
                 MATT HANEY, CHIEF OF POLICE, 
                         COLVILLE TRIBE

    Mr. Nissen. Good afternoon, Chairman Dorgan, Members of the 
Committee. My name is Brian Nissen, member of the Colville 
Business Council, which is the governing body of the 
Confederated Tribes of the Colville Reservation. I appreciate 
this opportunity to testify today on the increased gang 
activity in Indian Country.
    I will be particularly discussing Colville's challenges in 
addressing gang activity, and a couple of examples of recent 
incidents, and maybe a few ideas for some recommendations to 
improve our current situation.
    Accompanying today I have Matt Heney, our Chief of Police, 
who will be able to assist answering any questions.
    Before I begin, I would like to commend the Committee and 
Members of the Committee and Committee staff on their efforts 
and the support for continued work on the Tribal Law and Order 
Act of 2009. The Colville Tribe is fully supportive of this 
important legislation and very grateful for the Committee's 
willingness to consider some suggestions and other 
recommendations from Indian Country in order to make the bill 
more effective.
    The Colville Reservation is approximately 2,300 square 
miles located in north central Washington State. Although we 
are now considered a single tribe, the Confederated Tribes of 
the Colville Reservation is made up of a confederacy of 12 
aboriginal bands spread out throughout Eastern Washington. 
Currently, we have just over 9,350 enrolled members, making us 
one of the larger tribes in the Pacific Northwest.
    Although we are sparsely populated in this area, we still 
generate high demands for police services. Tribal gangs and 
predominantly Hispanic gangs are both attempting to exert 
control in areas of our reservation. Recently, the conflict has 
progressed from really threats to attempted murders. Much of 
the violence seems to be focused on new recruitment and defense 
of territories. Right now, we believe there are at least six 
gangs active on the reservation, two of which are predominantly 
Hispanic and based off the reservation bounds.
    Two recent incidents illustrate the severity of the gang 
problem on the reservation, one of which a Hispanic member of 
the SUR 13 Crip gang, which originated in Southern California 
in the 1960s, who was beaten so severely that he suffered 
permanent brain damage. A second incident occurring in May of 
this year began as a fist fight between Hispanic members of the 
SUR 13 and Colville Tribal members of the Bloods gang. It 
escalated, each of them gathering reinforcements and culminated 
in a shooting. One person was injured, and currently the 
suspect is a Colville Tribal member. He was a juvenile at the 
time and now faces Federal charges for attempted murder.
    Currently, the tribe has contracted law enforcement 
services through the Bureau of Indian Affairs under a 638 
contract, but because of funding limitations, we are only able 
to have three officers on duty at any given time. And to 
further illustrate this funding limitation, the tribe's 
contribution to our police department exceeds the amount that 
we receive from the BIA under the 638 contract. Because of this 
lack of funding, as was mentioned earlier, the response times 
to some of our remote areas of our reservation exceed over two 
hours.
    You know, apart from law enforcement, we are making 
attempts to address the gang violence through education and 
intervention activities. We have a BIA-funded school on the 
reservation. The Paschal Sherman Indian School is a K-8 school 
that incorporates tribal culture into its curriculum. As gang 
activity has increased, however, we have observed tribal youth 
openly rejecting our tribal culture and values such as respect 
for elders and family members.
    In response, we have included some cultural practices and 
beliefs, and including some of our tribal elders in some of the 
efforts to curtail this violence.
    Despite these efforts, we still have reports of our young 
women, ages 13, 14, 15 being raped by these gang members. The 
worst thing about it is they have fear to come forward to have 
anything done because their lives have been threatened, their 
families have been threatened if they are to come forward.
    I also have some personal implications. Some of my family 
members, my younger brother was involved in gang activities and 
he went down that path. Sorry.
    Let me say that, we are pleased that the Tribal Law and 
Order Act of 2009 we believe contains thoughtful provisions 
that address some of these issues. We have a list of 
recommendations, and I would just like to highlight a couple of 
them.
    First being to continue to emphasize the United States 
Attorneys' trust responsibility to investigate and prosecute 
violent crimes in Indian Country, particularly major crimes. We 
also ask you to authorize new programs or augment existing 
programs that provide grants to schools on or near Indian 
communities that have demonstrated gang problems, to implement 
culturally appropriate education, prevention and intervention 
activities similar to what we are attempting at Paschal Sherman 
Indian School.
    This concludes my report at this time. I appreciate 
everybody's time and am open for questions following.
    Thank you.
    [The prepared statement of Mr. Nissen follows:]

 Prepared Statement of Hon. Brian Nissen, Council Member, Confederated 
                   Tribes of the Colville Reservation
    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, and members 
of the Committee. My name is Brian Nissen and I am a member of the 
Colville Business Council, the governing body of the Confederated 
Tribes of the Colville Reservation (``Colville Tribe'' or ``Tribe''). I 
appreciate this opportunity to testify today on the increase of gang 
activity in Indian country. Specifically, I will discuss the Colville 
Tribe's challenges in addressing gang activity, provide examples of 
recent gang related incidents on the Colville Reservation, and provide 
recommendations on how the current situation can be improved. 
Accompanying me today is Matt Haney, the Chief of Police of the 
Colville Tribe, who will assist me in answering questions.
    Before I begin, I would like to commend the members of the 
Committee and the Committee staff for their support for and continued 
work on the Tribal Law and Order Act of 2009. The Colville Tribe 
enthusiastically supports this important legislation and is grateful 
for the Committee's willingness to consider our suggestions and other 
recommendations from Indian country to make the bill even more 
effective.
Gang Activity on the Colville Reservation
    The Colville Indian Reservation encompasses approximately 2,275 
square miles and is in north central Washington State. Although now 
considered a single Indian tribe, the Confederated Tribes of the 
Colville Reservation is, as the name states, a confederation of 12 
smaller aboriginal tribes and bands from all across eastern Washington. 
The Colville Tribe has nearly 9,300 enrolled members, making it one of 
the largest Indian tribes in the Pacific Northwest. About half of the 
Tribe's members live on or near the Colville Reservation.
    The Colville Reservation is divided into four districts (Omak, 
Nespelem, Inchelium and Keller) that correspond to the population 
centers on the Reservation. The Omak district includes approximately 
half of the town of Omak, Washington, which is the largest town in 
Okanogan County. Although the Nespelem, Inchelium and Keller districts 
have seen an increase in gang activity, by far the highest incidence of 
known gang activity occurs in the Omak district.
    Tribal gangs and predominately Hispanic gangs from Mexico are both 
attempting to assert control in the Omak area. The conflict between the 
rival gangs has progressed from threats to attempted murder. Much of 
the violence associated with gang activity on the Colville Reservation 
appears to be focused on the recruitment of new members and the gangs' 
defense of their prospective territory. These territories are important 
to the gangs in part due to drug distribution and gang recognition. The 
Tribe believes that at least six distinct gangs are active on the 
Colville Reservation, two of which are predominantly Hispanic gangs 
based outside the Reservation and the other four gangs predominated by 
tribal members.
    Two recent incidents illustrate the severity of the gang problem on 
the Colville Reservation. One incident occurred on April 16, 2008, when 
the Tribe's police officers responded to an assault victim in the 
Moccasin Flat housing development outside the town of Omak. Moccasin 
Flat is one of the older Department of Housing and Urban Development 
communities in the Omak area. A Hispanic male was found lying in a 
ditch and had been beaten badly. The victim was well known to the 
Colville Tribal Police and to other tribal law enforcement as a member 
of the SUR 13 gang. SUR 13 stands for ``Surenos 13,'' a gang affiliated 
with the Crips that originated in southern California in the 1960s.
    The Tribe's investigation revealed that the victim had gone to a 
party in the Moccasin Flat BUD site that was mainly attended by younger 
tribal members between the ages of 15 and 25. Shortly after arriving, 
the victim was seen by a witness walking out of the house with several 
people. The witness saw that the victim had taken off his blue bandana, 
which signified that he was not seeking a confrontation. Upon going 
outside, the victim was attacked by several members of the party. 
Ultimately, he was left lying in a ditch with severe injuries.
    Colville Tribal Police interviewed several individuals who attended 
the party, all of whom denied that they were gang members even though 
members of the tribal community and tribal law enforcement routinely 
observed them wearing gang colors, passing gang signs, and promoting 
their gang affiliation on websites such as My Space. None of these 
individuals, most of whom are Colville tribal members, were willing to 
identify the assailants. To date, no arrests have been made and the 
case remains open. The victim suffered permanent brain damage.
    A second, even more disturbing incident occurred on May 4, 2009, 
within the city limits of the town of Omak on the Colville Reservation. 
The incident began as a fist fight between Hispanic members of SUR 13 
and Colville tribal members of the Bloods, escalated when each side 
gathered reinforcements, and culminated in a shooting.
    The victim, a Hispanic male, and his friends were in a car driving 
in east Omak when a tribal member, dressed in red, threw a rock at 
their car. As the victim exited the vehicle to confront the rock 
thrower, another car arrived and one of its occupants, also wearing 
red, retrieved a rifle from the car and opened fire. At least 18 rounds 
were fired, with the victim being struck once. Residents corroborated 
the victim's account and the suspect was later identified and arrested.
    The suspect, a Colville tribal member, was a juvenile when the 
incident occurred and is currently facing federal charges for attempted 
murder.
Law Enforcement Challenges to Gang Activity on the Colville Reservation
    As noted above, the Colville Reservation encompasses nearly 2,300 
square miles. This area, while sparsely populated, generates a high 
demand for police services. The Colville Tribe has contracted law 
enforcement services from the Bureau of Indian Affairs (``BIA'') under 
a 638 contract. Because of BIA funding limitations, however, only three 
tribal officers are available on any given shift to respond to calls. 
To illustrate these funding limitations, this year the Colville Tribe's 
contribution to the Tribe's Police Department exceeds the amount the 
Tribe receives for law enforcement from the BIA under its 638 contract. 
This lack of funding for law enforcement personnel translates into 
response times that often exceed two hours for calls to the more remote 
areas of the Reservation.
    In absence of agreements with local governments, our tribal 
officers are generally responsible only for calls involving tribal 
members. Both the Okanogan and Ferry County Sheriffs Departments are 
severely understaffed, which has, for practical purposes, required the 
Colville Tribe to ensure that its officers are cross commissioned and 
can also enforce state laws within the boundaries of the Colville 
Reservation. To the extent that they are able, both Okanogan and Ferry 
counties assist the Tribe when they are called and the Tribe has a 
cooperative relationship with law enforcement from both counties.
    Ideally, the Colville Tribe's officers would have sufficient 
resources in the form of manpower and training to address the 
burgeoning incidence of gang violence. In most cases, our officers know 
the individuals involved and could make a dramatic impact on the 
proliferation of gangs on the Reservation by preventing gang membership 
by vulnerable tribal youth. As in many Indian communities, nearly 
everyone knows each other's families. Tribal law enforcement leaders 
are constantly looking for opportunities to engage tribal members in 
``non-enforcement'' situations in order to build relationships that 
will transcend traditional police officer stereotypes held by some in 
our community. This change cannot occur, however, until additional 
resources are available for tribal officers to allow for proactive, as 
opposed to reactive, policing.
Education and Intervention Activities
    Apart from law enforcement, the Tribe has also attempted to address 
gangs through education and intervention activities. The Colville 
Reservation is home to a BIA-funded school that has incorporated a 
variety of strategies to deter tribal youth from gang activity. Located 
just outside Omak, Washington, the Paschal Sherman Indian School 
(``PSIS'' or the ``School'') is a K-8 school that incorporates tribal 
culture into its curriculum. The School's mental health professionals 
and teachers work with students in group settings to discuss a variety 
of issues related to gangs within the tribal community. The School has 
recognized that a group environment more effectively fosters open 
discussion and awareness among the students of gang activity than other 
classroom methods.
    PSIS staff have found that many of the School's students identify 
with the color red, a color associated with gangs, and tend to defend 
the importance of the color and how it represents a sense of pride. In 
conjunction with the group sessions, the School utilizes video programs 
to challenge the students' beliefs and to communicate the reality of 
gang life. An underlying theme in many of these sessions is how many 
families on the Colville Reservation have multiple generations that 
have been incarcerated for gang related criminal activity.
    Many of the School's students feel, with these programs, they have 
a safe place to explore and discuss their concerns about peer pressure, 
gang violence, and the actual consequences of how their choices can and 
will impact their futures. As gang activity has increased on the 
Colville Reservation, the Tribe's members and law enforcement officers 
have observed some tribal youth openly rejecting tribal culture and 
values, such as respect for elders and family. In response, PSIS has 
expanded the group discussions to include cultural beliefs and how 
tribal elders would respond to the development of gangs in the 
community. The increase in the number of Colville tribal youth that are 
being held by the Okanogan County Juvenile Department in recent years 
for gang related criminal activity has also highlighted the negative 
impact of gang activity for the School's students.
Recommendations
    Like many other Indian tribes, the Colville Tribe is hampered by 
insufficient funding, insufficient legal authority to fully punish 
offenders, and the reluctance of federal authorities to investigate and 
prosecute violent crimes that occur on the Colville Reservation. As the 
Committee is aware, when the United States declines to prosecute crimes 
in Indian country, tribal courts are only empowered to sentence 
perpetrators of any crime, regardless of its severity, to one year in 
jail. The May 4 gang shooting in Omak is illustrative of this 
predicament. Had the United States Attorney declined to prosecute, as 
is often the case, the only option for the Tribe would have been to 
prosecute the suspect for attempted murder under Colville Tribal law, 
with a maximum sentence of one year. The Colville Tribe is pleased that 
the tribal Law and Order Act of 2009 contains provisions that address 
many of these issues.
    Based on our experience with gang activity on the Colville 
Reservation, we offer the Committee the following recommendations:

  <bullet> Continue to emphasize at any given opportunity that United 
        States Attorneys must perform their trust responsibility to 
        investigate and prosecute violent crimes in Indian country, 
        particularly major crimes;

  <bullet> Continue to impress upon the Administration and the 
        appropriators the need to increase funding for BIA law 
        enforcement services and to ensure that any increases are used 
        to put additional officers in Indian country;

  <bullet> Authorize a new program (or augment existing programs) that 
        would provide for grants to schools on or near Indian 
        communities that have demonstrated gang problems to implement 
        culturally appropriate education, intervention and prevention 
        activities similar to what the Colville Tribe is currently 
        doing at the PSIS;

  <bullet> Ensure that existing gang prevention initiatives such as 
        Police Activities Leagues and School Resource Officers are made 
        available by the BIA to those Indian tribes that wish to 
        implement these activities, including providing training to 
        tribes that request it; and

  <bullet> Identify and eliminate existing regulatory barriers that 
        prevent the most effective use of tribal law enforcement 
        resources. For example, the Colville Tribe has been working 
        with the Committee to clarify in the Tribal Law and Order Act 
        that Special Law Enforcement Commission Agreements should 
        reflect the status of certified individuals as federal law 
        enforcement officers for liability purposes when enforcing 
        tribal laws. This technical change would relieve the Colville 
        Tribe and other similarly situated Indian tribes from the need 
        to purchase expensive umbrella liability insurance policies to 
        cover instances where tribal officers might be sued in their 
        individual capacities for good faith enforcement of tribal 
        laws. Addressing this gap would allow tribes to use their 
        resources for more critical purposes, such as paying for 
        additional shifts or hiring new officers. This change also 
        makes sense because in many cases, specifically where tribes 
        have contracted law enforcement under P.L. 93-638, tribal 
        officers by default investigate and enforce violations of both 
        federal and tribal laws.

    This concludes my statement. At this time, I would be happy to 
answer any questions the Committee may have.
                       Supplementary Information
    Thank you Chairman Dorgan, Vice Chairman Barrasso, and members of 
the Committee for allowing me to provide supplemental information for 
the Committee's record in connection with the July 30, 2009, oversight 
hearing on the increase of gang activity in Indian country. Again, I 
would like to commend the members of the Committee and the Committee 
staff for their support for and continued work on the Tribal Law and 
Order Act of 2009. This legislation will address many of the issues 
discussed during the hearing, specifically the lack of patrol officers, 
jurisdictional complexities, and the reluctance of federal law 
enforcement officials to investigate and prosecute crimes in Indian 
country.
    Chairman Dorgan mentioned in his opening statement that past 
reports indicated reservation gangs have been relatively unorganized 
and that gang-related crimes were limited but escalating. We are 
saddened to report that on August 8, 2009, a 25 year-old man from 
Lapwai, Idaho, was shot in the head shortly after midnight in Omak on 
our reservation in a drive-by shooting. The shooting occurred in an 
area known for drug and gang activity and the Colville Tribal Police, 
together with other law enforcement agencies, are currently 
investigating whether the shooting is related to gang activity. As of 
this writing, no suspects have been arrested and the victim remains in 
critical condition. Like Chairman Dorgan, we echo the statement ``we 
need a better response'' to address this complex issue.
    At the conclusion of the July 30 oversight hearing, Chairman Dorgan 
requested that the witnesses supplement the record to address what 
their respective tribes would do to address gang activity through means 
other than law enforcement if they were provided with additional 
resources. The Colville Tribes' response would be to engage with our 
youth in ways that are relevant and meaningful to them. With additional 
resources to invest in our youth, the Tribes would choose to develop 
and implement multidisciplinary art and multimedia projects throughout 
the year, either in after school programs or on weekend evenings, to 
provide constructive outlets, encourage collaboration and reinforce 
self-esteem and cultural identity for youth, and particularly for those 
not thriving academically. Musical and theatrical performances would be 
used to foster collaboration. Other elements of the curriculum would 
incorporate lessons learned from providing these outlets in therapy and 
in jail settings as well as those learned from use of role-play and 
drama in schools to improve verbal skills and encourage creative 
dispute resolution. Murals could cover graffiti. Scheduling regular 
public shows would focus these sessions and engage the larger community 
in this work. To the greatest extent possible, broadcast and print 
media would also be used to disseminate what the youth produce. 
Additional resources would also be helpful to support development and 
maintenance of a community radio project we've been working on for 
years.
    While these projects focus on engaging youth in our community in 
constructive ways and serve as a deterrent to gang activities, the 
Colville Tribes are also looking to alternative sentencing and 
peacemaking programs as a way to combat the erosion of tribal authority 
in prosecuting major crimes. The Colville Tribes are implementing, and 
would continue to implement if provided additional resources, a 
Peacemaking Court. As the Committee is aware, Peacemaking courts allow 
for the resolution of conflicts using tribal traditions, customs and 
culture. Although not fully developed and implemented, the Colville 
Tribes plan to use this process in some capacity first with youth, 
introducing them to a culturally-based method that fosters respect for 
all including self and acknowledging responsibility. If feasible, the 
Peacemaking Court would then be expanded to include adult cases. The 
Peacemaking Court that the Colville Tribes is implementing would, among 
other things, (a) call on the wisdom and experience of Tribal elders; 
(b) address youth in conflict as a whole person to find the root causes 
of inappropriate or irresponsible behavior; (c) focus on restoration in 
the community rather than punishment; (d) mentor the youth in cultural 
traditions and rituals; and (e) give to the youth and invite the youth 
to give back to the community. Ultimately, the Peacemaking Court seeks 
to attain peace through healing by healing the causes of the behavior 
and the damage to the community caused by the behavior. Additional 
financial support would allow for the development, implementation and 
ongoing costs of culturally-based processes like the Peacemaking Court 
that hold youth accountable to their communities.
    Finally, in addressing Chairman Dorgan's statement at the hearing 
that the ``problem with youth violence is that it goes unpunished and 
then it escalates,'' the Colville Tribes continues to be concerned 
about finding the most appropriate mechanisms to encourage lawful 
behavior within the Colville Reservation. The Tribes recently 
disseminated a survey to our tribal citizens that sought their views 
about the types of penalties that should be available for criminal 
conduct. The survey included options for economic disincentives such as 
withholding per capita payments, banishment and, in extreme cases, 
disenrollment. The limits imposed on Tribal governments resulting from 
the Indian Civil Rights Act make it difficult to always ``make the 
penalty fit the crime,'' but it may also result in a consideration of 
other mechanisms to address criminal behavior.
    The more authority that can be returned to Indian tribes to tailor 
our response to crime in our communities, the more likely our efforts 
will be effective in preventing and deterring it. It is our belief that 
we must tie our response to criminal behavior to our culture so that 
our people see clearly the link between the laws to which they are 
subject and the ways of our people.
    Again, we appreciate the Committee's willingness to examine these 
issues and look forward to continuing to assist the Committee in any 
way we can in addressing the causes and responses to gang activity in 
Indian country.

    The Chairman. Mr. Nissen, thank you very much.
    Next, we will hear from Mr. Sampson Cowboy, Director of the 
Department of Public Safety at the Navajo Nation, Window Rock, 
Arizona.
    Mr. Cowboy, thank you.

STATEMENT OF SAMPSON COWBOY, EXECUTIVE DIRECTOR, DEPARTMENT OF 
                  PUBLIC SAFETY, NAVAJO NATION

    Mr. Cowboy. Good afternoon. Chairman Dorgan and Members of 
the Committee, thank you for allowing the Navajo Nation to 
testify today regarding gang activity in Indian Country.
    My name is Sampson Cowboy and I am Executive Director for 
the Navajo Division of Public Safety. I am President Shirley's 
designee at today's hearing. I would like to thank my staff 
also.
    The famous phrase that is always used, ``We do more with 
little,'' and that is what is happening in Navajo Nation. I 
want to make it clear that Navajo Division of Public Safety 
agrees with you, Chairman Dorgan, that this issue has been 
analyzed and analyzed and analyzed, and we need an appropriate 
amount of funding so that Navajo Nation law enforcement has 
adequate resources to address and combat these issues.
    Moreover, the Navajo Division of Public Safety agrees with 
the June, 2009 report from the Department of Justice that 
tribal communities and Federal law enforcement must have the 
flexibility to react to specific offenses and also to work 
collaboratively to address proactively up and coming criminal 
trends. Federal money and dedicated personnel can then leverage 
and maximize assisting tribal efforts.
    My testimony today is divided in three parts: the 
community, with a brief introduction describing Navajo Division 
of Public Safety; provide Committee with the background of 
statistical information; and Navajo efforts to curtail 
proliferation of gangs. Lastly, I will provide the Committee 
with our recommendations on how stakeholders involved can 
successfully counter gang activities.
    Navajo Division of Public Safety background. The Navajo 
Division of Public Safety has an annual budget of $60 million 
and 700 employees. Navajo Public Safety consists of seven 
police districts and six adult correctional facilities, which 
are dilapidated; 14 percent of Public Safety funds are from 
Navajo Nation general funds, while 86 percent are derived from 
Federal sources. However, the Division of Public Safety is 
staffed at a low ratio of .06 police officers per 1,000 people, 
compared to the national average of 2.5 per 1,000.
    The crime statistics illustrate a daunting challenge for 
Navajo Nation. Navajo Nation law enforcement answers over 
289,000 calls every year and make over 39,000 arrests, nearly 
1,000 of which are major crimes. In 2008, the Navajo Nation 
experienced 14 homicides, 230 sexual offenses, 24 robberies, 
363 assaults, 958 burglaries, 1,342 cases of larceny, and 266 
cases of arson. We also had 46 cases of selling or 
manufacturing drugs and 471 cases of possession of drugs.
    A brief history of gangs in Navajo Nation. In late 1990, 
Navajo Nation report indicated that Navajo youths join gangs 
for many of the same reasons that youth in urban areas join 
them: poverty, unemployment, child abuse and neglect, substance 
abuse within families and family breakups. The Navajo report 
indicated that gang violence is related to other navajo Nation 
social ills, including domestic and family violence, child 
abuse and neglect, substance abuse, poverty, unemployment, and 
loss of language and culture, the very things that fuel gang 
activity in urban areas.
    In 1999, a Navajo report also indicated that Navajo youth 
gangs are not as heavily engaged in drug dealing, acquiring 
weapons, and the escalation of weapons violence as gangs in 
urban areas, but there is a danger of hardening and escalation 
of drug trade and weapons in the Navajo Nation unless the gang 
problem is effectively addressed.
    Gentlemen, as we talk about this daunting issue and 
challenges, we also have established some resources that have 
handled some of these issues. The FBI Safe Trails Task Force in 
New Mexico, Arizona and Utah, they have combined the forces 
together and incarcerated several gang members, and today they 
are still serving time in Federal prison.
    In the mid-2000s, the Navajo Nation once again saw a rise 
in gang activity partly due to the introduction of 
methamphetamine.
    Statistical information. The Navajo Nation developed an 
information management system to track the involvement of gangs 
in the commission of crimes. The definition we utilize for a 
gang is an ``ongoing formal or informal association of persons 
whose members or associates individually or collectively engage 
in the commission, facilitation and solicitation of any felony 
act, or who has at least one individual who is a criminal 
street gang member.''
    We currently have 225 documented gangs on the Navajo 
Nation. This is a significant increase from the 75 active gang 
sets that were documented in 1997. The total number of gang 
members on Navajo Nation is between 1,500 and 2,000. In 2008, 
our IMS tracked 71 cases of gang-related crimes were tracked. 
In 2009, we have tracked 35 gang-related crimes. The primary 
crimes committed by gangs on the Navajo Nation are property 
damage including graffiti, burglary, assaults, theft and public 
intoxication.
    The recommendations for the Navajo Nation is to capable of 
tracking of this new emergence of gang activity with 
appropriate resources. Appropriate resources include funding 
for an additional six officers in the Drug and Gang Unit, 
Navajo Nation has its own gang unit; funding for an accurate 
tracking system of gang members and database; and funding for 
law enforcement equipment, including surveillance camera, night 
vision and other undercover vehicles.
    In the bigger picture, the Navajo Nation continues to 
advocate for increased funding for criminal justice facilities 
to prosecute and incarcerate criminal gang members.
    Thank you.
    [The prepared statement of Mr. Cowboy follows:]

Prepared Statement of Sampson Cowboy, Executive Director, Department of 
                      Public Safety, Navajo Nation
    Good afternoon Chairman Dorgan, ranking member Barrasso and members 
of the Committee. Thank you for allowing the Navajo Nation to testify 
today regarding gang activity in Indian Country. My name is Sampson 
Cowboy and I am the Executive Director of the Navajo Nation Division of 
Public Safety (DPS). I am President Shirley's designee at today's 
hearing.
    I want to make it clear that the Navajo Nation DPS agrees with you 
Chairman Dorgan that this issue has been analyzed and analyzed and 
analyzed, and we need the appropriate amount of funding so that the 
Navajo Nation law enforcement has the adequate resources to address and 
combat these issues. Moreover, the Navajo Nation DPS agrees with the 
June, 2009, report from the Department of Justice that:

        ``Tribal communities and federal law enforcement must have the 
        flexibility to react to a specific criminal offense and also to 
        work collaboratively to address proactively up and coming 
        criminal trends. Federal money and dedicated personnel can then 
        leverage and maximize existing tribal efforts.''

    My testimony today is divided in three parts: First, I will provide 
the Committee with a brief introduction describing the Navajo Nation 
Division of Public Safety. I will then provide the Committee with 
background and statistical information and Navajo Nation's efforts to 
curtail the proliferation of gangs. Lastly, I will provide the 
Committee with our recommendations on how all stakeholders involved can 
successfully counter gang activity.
Navajo Division of Public Safety Background
    The Division of Public Safety is tasked with investigating crimes, 
protecting the Navajo People, and the Public, and maintaining and 
staffing the Nation's detention facilities. DPS has an annual budget of 
nearly $60 million with 700 employees. Navajo Public Safety consists of 
seven (7) Police Districts and six (6) adult correctional facilities. 
Fourteen (14) percent of Public Safety funds are from Navajo Nation 
General funds while eighty-six (86) percent are derived from federal 
sources. However, the Division of Public Safety is staffed at a low 
ratio of .06 Police Officers per 1000 people, compared to the national 
average of 2.5 per 1,000.
    The crime statistics illustrate a daunting challenge for the Navajo 
Nation. Navajo Nation Law Enforcement answer over 289,000 calls every 
year and make over 39,000 arrests, nearly 1,000 of which are major 
crimes. In 2008, the Navajo Nation experienced 14 homicides, 230 sexual 
offenses, 24 robberies, 363 assaults, 958 burglaries, 1,342 cases of 
larceny, and 266 cases of arson. We also had 46 cases of selling or 
manufacturing drugs and 471 cases of possession of drugs.
Brief History of Gangs in the Navajo Nation
    A late 1990 Navajo report indicated that Navajo youths join gangs 
for many of the same reasons that youths in urban areas join them--
poverty, unemployment, child abuse and neglect, substance abuse within 
families and family breakup. The Navajo report indicated that gang 
violence are related to other Navajo Nation social ills, including 
domestic and family violence, child abuse and neglect, substance abuse, 
poverty, unemployment, and the loss of language and culture--the very 
things that fuel gang activity in urban areas.
    The 1990 Navajo report also indicated that Navajo youth gangs are 
not as heavily engaged in drug dealing, acquiring weapons, and the 
escalation of weapons violence as gangs in urban areas, but there is a 
danger of hardening and an escalation of drug trade and weapons in the 
Navajo Nation unless the gang problem is effectively addressed.
    The 1990's saw a dramatic rise in gang activity on the Navajo 
Nation. The Navajo Nation established the Window Rock Gang Unit as a 
result of this increase in gang activity. The Window Rock Gang Unit was 
successful in curtailing the rise of gangs by creating a task force of 
various governmental agencies that sought arrests and prosecutions of 
violent gang members. During the same time period the FBI initiated 
Operation Safe Trails in New Mexico, Utah, and Arizona to partly 
address the increase in gang-related activity on the Navajo Nation. 
These three task forces are still in existence and depend on federal 
funding. The United States Attorney's Office work diligently to bring 
criminal gang members to justice. Several of these convicted gang 
members are still serving time in federal prisons.
    In the mid 2000's the Navajo Nation once again saw a rise in gang 
activity partly due to the introduction of methamphetamine. The Navajo 
Nation established the Navajo Police Drug and Gang Enforcement Unit as 
a result of this current increase in gang activity.
Statistical Information
    The Navajo Nation DPS developed an Information Management System to 
track the involvement of gangs in the commission of crimes. The 
definition we utilize for a gang is ``an ongoing formal or informal 
association of persons whose members or associates individually or 
collectively engage in the commission, attempted commission, 
facilitation, or solicitation of any felony act, or who has at least 
one individual who is a criminal street gang member.''
    We currently have 225 documented gangs on the Navajo Nation. This 
is a significant increase from the 75 active gang sets that were 
documented in 1997. The total number of gang members on the Navajo 
Nation is between 1,500 and 2,000. In 2008 our IMS tracked 71 cases of 
gang related crimes. In 2009 we have currently tracked 35 gang related 
crimes. The primary crimes committed by gangs on the Navajo Nation are 
property damage including graffiti, burglaries, assaults, theft and 
public intoxication. The gangs within the Navajo Nation are not 
currently organized on large scales nor are gangs coordinating with 
other gangs.
    With the recent undercover drug and bootlegging operations that the 
Navajo Police Drug and Gang Enforcement Unit conducted, the Unit has 
not seen a significant relationship between Navajo Nation gangs and 
bootlegging. Undercover officers have encountered gangs members at some 
of the residences, but the gang members did not associate themselves 
with the criminal activity involved. The gang members appeared to be 
children of the individual bootleggers.
    However with methamphetamines, the Drug and Gang Enforcement Unit 
has seen an increase in gang activity. Of the past and current sixty 
(60) targets that the Unit has come across five (5) of them were gang 
members. The Unit noticed that the five (5) gang members dealing with 
methamphetamines were individual gang members and not the whole gang.
    The Navajo Police Drug and Gang Enforcement Unit has its own Navajo 
Nation Gang Database. The Unit shares its Field Interview cards with 
the Arizona Gang Intelligence Team Enforcement Mission (GITEM) Database 
and will be submitting gang information to the Rocky Mountain 
Intelligence Network (RMIN).
    It should be noted that the Navajo Nation's gathering of gang data 
is still in its infancy. The Navajo Nation's statistical information 
can be improved with appropriate funding for a tracking system and 
additional law enforcement officers to accurately track gang data. The 
rural aspect of the Navajo Nation creates a challenge for DPS regarding 
the tracking of gangs and their activities. We are in agreement with 
the Department of Justice assessment that the ``remoteness and 
isolation creates obstacles to effective prevention, control, and 
reduction of violent crime, drug-related criminal activity, and gang 
activity.''
Navajo Nation Efforts and Recommendations
    The Navajo Nation is capable of tackling this new emergence of gang 
activity with the appropriate resources. Appropriate resources include 
funding for an additional six (6) officers in the Drug and Gang 
Enforcement Unit; funding for an accurate tracking system of gang 
members and database; and funding for law enforcement equipment 
including surveillance cameras; night vision and under cover vehicles. 
In the bigger picture the Navajo Nation continues to advocate for 
increased funding for criminal justice facilities to prosecute and 
incarcerate criminal gang members.
    The Navajo Nation DPS employs a multi-faceted and collaborative 
approach in addressing the gang problem. The main ingredient in the 
Navajo Nation's arsenal has been the working task force between the 
Navajo Nation, and her federal and state counterparts and the tracking 
of gang members. A prime example of this collaboration is our pilot 
project in the Eastern Navajo Nation Dlo'ayazhi community located in 
western New Mexico. We employ an arsenal of law enforcement resources 
including our Gang unit. This pilot project will specifically address 
the problems experienced in that community.
    In conclusion, the Navajo Nation DPS has risen to the challenge in 
combating the increase in gang activity and will be successful with 
continued support. On the Navajo Nation, violence and instability are 
not the norm when it comes to gangs.

    The Chairman. Mr. Cowboy, thank you very much for being 
with us.
    And finally, Carmen Smith, the Chief of Police, 
Confederated Tribes of Warm Spring, Warm Spring, Oregon.
    Mr. Smith, thank you.

STATEMENT OF CARMEN SMITH, CHIEF OF POLICE, WARM SPRINGS TRIBAL 
    POLICE DEPARTMENT; ACCOMPANIED BY BILL ELLIOT, DETECTIVE

    Mr. Smith. Good afternoon, Chairman Dorgan and Members of 
the Committee. I appreciate this opportunity to appear before 
the Committee on behalf of Warm Spring and the other tribal 
police departments in the Pacific Northwest. I hope my 
testimony will provide this Committee a perspective on criminal 
gang and drug activity in Indian Country from those who have to 
deal with these issues on a daily basis, the tribal police 
officer.
    It is the responsibility of the over 22 tribal law 
enforcement organizations currently operating in this region to 
provide for the health and safety of our tribal membership and 
others residing, working or visiting Native American lands.
    However, until now we have not had a voice in matters 
related to enforcement problems in our jurisdictions such as 
authority, funding, special commissions, grants, intelligence 
sharing, and other issues needed in order for us to 
successfully accomplish our mandates. We are the first 
responders and investigators, but often cut off from the needed 
tools.
    There exists in Indian Country today the twin scourges of 
drug abuse and criminal gang activities. These two menaces left 
unchecked will undermine the very fabric of Native American 
society. The gang problem is an issue which is most distressing 
to our communities, as to become a gang member, you must 
dismiss your family and your culture in favor of the gang. This 
philosophy will create a generational loss that Indian society 
can ill afford.
    In addition, the gangs on the reservation have brought with 
them the same violence as we are witnessing off the reservation 
with drive-by shootings, drug trafficking, home invasions, the 
assault of elders, the rape of minor females as initiation 
rites to gangs, and murders.
    As presented in our charts, you will note that the gangs to 
which we refer are no longer just copycat, MTV gangsters, but 
rather criminal organizations. These organizations are growing 
in Indian Country at an alarming rate due to the high level of 
poverty and unemployment, and the increase in foreign nationals 
who have married tribal members, or simply moved onto the 
reservations. These subjects have brought with them the 
organizational skills and the access to guns and drugs needed 
for gangs to operate, and have links to Mexican drug 
trafficking cartels who are currently destabilizing that 
country.
    The gang problem is compounded by the interrelationship of 
tribal members between reservations and the movement of tribal 
members from one reservation to another during events like the 
Pow Wow circuit. Yet, the tribal police departments in this 
region are denied, or have restricted access to federally 
funded criminal intelligence networks and funding from the High 
Intensity Drug Trafficking Area programs. There are not even 
any tribal police representatives who sit on the HIDTA boards 
so the needs of the reservations in this area are not heard.
    However, even with these constraints, the tribal police 
agencies in this region recognize the gang problem, scratched 
together some funding and banded together with their off-
reservation gang task forces to attack the gang and drug 
presence in the HUD housing projects on the reservation. 
Operation Counting Coup received the support of the U.S. 
Attorneys' Office and we even briefed the FBI.
    The only issue was that of jurisdiction, as these criminal 
enterprises operated on and off the reservation. This was 
overcome by applying for United States Marshals Service 
deputations. After reviewing the tribal and local police 
applications, and the other supporting documentation, the U.S. 
Marshals Service authorized these deputations.
    But, as the tribal and State officers were preparing to be 
sworn in, the Bureau of Indian Affairs inexplicably called the 
U.S. Marshals Service and had the deputations pulled. After 
this, the BIA refused to explain why, or even return calls, 
behaving in a manner that only can be described as 
unprofessional. The tribes were forced to seek answers from the 
Department of Interior and the President's Office of National 
Drug Control Policy, who could not understand why the BIA had 
done this, nor believe they even had the authority to do it.
    The tribes were eventually told three weeks later by the 
Department of Interior that the BIA did this because they were 
not properly briefed, which is false, and the BIA Area Director 
who sponsored the deputations didn't have the authority. 
However, we believe this action was taken out of spite because 
the success of this operation would have made the BIA look 
worse than they are already perceived.
    The incident aside, it does illustrate the greater problem 
of the bureaucracy that overwhelms any attempts by tribal law 
enforcement authorities to cope with the public safety issues 
in their jurisdictions. Congress seems to believe that by 
providing increased funding to BIA, this will translate into 
increased services in Indian Country. This has not been the 
fact in the Pacific Northwest. When Congress gave the BIA 
millions of dollars for drug enforcement, there was not even a 
survey sent out to tribal departments in order to ascertain 
problem areas or usage. Instead, they used these funds to 
create some sort of BIA-type DEA which the tribes have not seen 
any benefits.
    The BIA law enforcement program is perceived by tribal 
police departments in this region as one of the biggest 
impediments to public safety issues. In their current 
structure, they are non-communicative and not a good fiduciary 
for federal funding to Indian Country law enforcement programs 
in this area.
    On the other hand, the United States Attorneys' Office and 
the FBI, no matter how well-intentioned, can be an overwhelming 
presence which tends to stifle tribal initiatives. We truly 
appreciate their assistance, yet we need more parity in our 
relationship.
    When problems arise in Indian Country, Congress assumes the 
tribes need or want more Federal agency assistance, when in 
fact the tribes just want tools and funding to handle their own 
problems. At the end of the day, the tribal police are the ones 
who will make the difference in the fight against drugs and 
criminal gangs.
    Over the years, the tribal police agencies in this region 
have brought their officers training and experience comparable 
to or surpassing their off-reservation peers. If these tribal 
agencies could mutually support one another like the county and 
local agencies are able to do, access the same support systems 
and ability to create their own task forces like Operation 
Counting Coup, they will have a good chance of turning these 
problems around.
    The HIDTA system that has been successful in meeting the 
individual needs of State and county agencies, provides for 
accountability. These HIDTA funds are administered by a board 
of county and State law enforcement managers, and is a very 
effective program. However, because of jurisdictional issues 
and the fact that there are no tribal representatives on any of 
the State HIDTA boards, this program is problematic for tribal 
departments.
    However, we have proposed a HIDTA-type program for Indian 
Country in the Pacific Northwest. This program would allow for 
funding appropriated from Congress to go directly to the 
affected tribes with controls for accountability and direction. 
As such, we have proposed the creation of a Pacific Northwest 
Inter-Tribal Law Enforcement Mutual Aid Program. This would 
create the same type of system for Indian Country. This program 
will also create the transparency that currently is missing in 
the BIA drug and law enforcement programs.
    Every time there is a law enforcement problem in Indian 
Country, everyone looks to outside agencies for a solution. I 
am saying that given the funding, personnel, access to 
programs, the ability to submit cases directly to the U.S. 
Attorneys' Office, and the ability to receive Federal 
deputations for our officers and our State and local partners, 
tribal police organizations would be able to handle most of the 
situations we currently face.
    Thank you.
    [The prepared statement of Mr. Smith follows:]

   Prepared Statement of Carmen Smith, Chief of Police, Warm Springs 
                        Tribal Police Department
    Chairman Dorgan, Vice-Chair Barrasso and members of the Committee:
    I appreciate this opportunity to appear before the committee on 
behalf of the Warm Springs, and other Tribal Police Departments in the 
Pacific Northwest. I hope my testimony will provide this committee with 
a perspective of criminal gang and drug activity in Indian Country from 
those who have to deal with this issue on a daily basis, the Tribal 
Police Officer.
    It is the responsibility of the over twenty-two (22) Tribal Law 
Enforcement organizations currently operating in this region to provide 
for the Health and Safety of our Tribal membership, and others 
residing, working, or visiting Native American lands. However, until 
now we have not had a voice in matters related to enforcement problems 
in our jurisdictions such as authority, funding, special commissions, 
grants, intelligence sharing, and other issues needed in order for us 
to successfully accomplish our mandates.
    Even though we have excellent working relationships with some of 
the federal entities that have responsibilities in Indian Country, such 
as the Federal Bureau of Investigation (FBI), and the United States 
Attorney's Office (USAO), it is we who are the first responders. It is 
our officers who must deal with the victims, families, and suspects. It 
is also our departments who have daily contact with the children who 
are most at risk of becoming gang members, like the disenfranchised and 
the abused.
    It is also our detectives who are responsible for identifying 
problems as they are emerging, working drug deals, and having to gather 
intelligence and conduct investigations in an environment which does 
not provide them with the same access to the assets available to their 
off reservation counterparts.
    There exists in Indian Country today the twin scourge of drug abuse 
and criminal gang activity. These two menaces left unchecked will 
undermine the very fabric of Native American society. The gang problem 
is an issue which is most distressing to our communities, as to become 
a gang member you must dismiss your family, and your culture in favor 
of the gang. This philosophy will create a generational loss that 
Indian society can ill afford.
    In addition, the gangs on the reservation have brought with them 
the same violence as we are witnessing off the reservations with drive-
by shootings, drug trafficking, home invasions, the assault of elders, 
the rape of minor females as initiation rights to the gang, and 
murders.
    As presented on our charts (See gang organizational charts) you 
will note that the gangs to which we refer are no longer just copy cat, 
MTV gangsters, but rather criminal organizations. These organizations 
are growing in Indian Country at an alarming rate due to the high level 
of poverty and unemployment, and the increase in foreign nationals 
(illegal aliens) who have married tribal members, or simply moved onto 
the reservations. These subjects have brought with them the 
organizational skills and the access to guns and drugs needed for gangs 
to operate, and have links to the Mexican drug trafficking cartels who 
are currently destabilizing that country. The gang problem is 
compounded by the inter-relationship of tribal members between 
reservations, and the movement of tribal members from one reservation 
to another during events like the Pow-Wow circuit.
    Yet, the Tribal Police Departments in this region are denied, or 
have restricted access to federally funded criminal intelligence 
networks, funding from the High Intensity Drug Trafficking Area (HIDTA) 
programs, and have even been denied funding from the Drug Enforcement 
Administration's (DEA) Domestic Cannabis Eradication Program (DCEP), 
which every other state and local agency can receive funding. There are 
not even any Tribal Police representatives who sit on the HIDTA boards, 
so the needs of the reservations in this area are not heard.
    However, even with these constraints the tribal police agencies in 
this region recognized the gang problem, scratched together some 
funding, and banded together with their off reservation gang task 
forces to attack the gang and drug presence in the U.S. Housing and 
Urban Development (HUD) housing projects on the reservation. Operation 
``Counting Coup'' received the support of the USAO in 3 judicial 
districts, and we even briefed the FBI. The only issue was that of 
jurisdiction as these criminal enterprises operated on, and off the 
reservation. This was overcome by applying for United States Marshal 
Service (USMS) deputations. After reviewing the tribal and local police 
applications, and the other supporting documentation the U.S. Marshal's 
Service authorized these deputations.
    But, as the tribal and state officers were preparing to be sworn 
in, the Bureau of Indian Affairs (BIA) inexplicably called the USMS and 
had the deputations pulled. After this the BIA refused to explain why, 
or even return calls, behaving in a manner which can only be described 
as ``childish,'' or at best unprofessional. The tribes were forced to 
seek answers from the Department of the Interior (DOI), and the 
President's Office of National Drug Control Policy (ONDCP), who could 
not understand why the BIA had done this, nor believed they even had 
the authority to do it. The tribes were eventually (3 weeks later) told 
by the DOI that the BIA did this because they were not properly briefed 
(which is false), and the BIA Area Director who sponsored the 
deputations didn't have the authority. However, we believe this action 
was taken out of spite because the success of this operation would have 
made the BIA look worse than they are already perceived.
    This incident aside, it does illustrate the greater problem of the 
bureaucracy that smothers any attempts of Tribal Law Enforcement 
authorities to cope with the public safety issues in their 
jurisdictions, no matter how benevolent, or capricious these federal or 
state entities may be. Congress seems to believe that by providing 
increased funding to the BIA, will translate into increased services in 
Indian Country. This has not been the fact in the Pacific Northwest. 
When congress gave the BIA millions of dollars for drug enforcement 
there was not even a survey sent out to Tribal Departments in order to 
ascertain problem areas or ideas for this funding usage, instead they 
used these funds to create some sort of BIA type DEA which the tribes 
have not seen any benefits. The BIA law enforcement program is 
perceived by tribal police departments in this region as one of the 
biggest impediments to public safety issues. In their current structure 
they are non communicative, arrogant, and not a good fiduciary for 
federal funding to Indian Country law enforcement programs in this 
area.
    On the other hand, the USAO and the FBI, no matter how well 
intentioned, can be an overwhelming presence which tends to stifle 
tribal initiatives. We truly appreciate their assistance, yet we need 
more parity in our relationship, more reminiscent of their 
relationships with off reservation police departments.
    When problems arise in Indian Country, Congress assumes the tribes 
need, or want more federal agency assistance, when in fact the tribes 
just want the tools and funding to handle their own problems. At the 
end of the day, the tribal police are the ones who will make the 
difference in the fight against drugs and criminal gangs. Over the 
years, the Tribal Police agencies in this region have brought their 
officers training, and experience comparable to, or surpassing their 
off reservation peers. If these Tribal agencies are given the 
opportunity to mutually support one another (much like the county and 
local agencies are able to do), access the same support systems 
available to state and local officers, and the ability to create their 
own task forces like Operation ``Counting Coup,'' they will have a good 
chance of turning these problems around.
    The state and county agencies have the HIDTA system that has been 
successful in providing for the individual needs of each department, 
and accountability for the government agencies providing the funding. 
These HIDTA funds are administered by a board of county and state law 
enforcement managers and is a very effective program. However, because 
of jurisdictional issues, and the fact that there are no tribal 
representatives on any of the state HIDTA boards, this program is 
problematic for tribal departments. However, we have proposed a HIDTA 
type program for Indian Country in the Pacific Northwest. This program 
would allow for funding appropriated form Congress to go directly to 
the affected tribes with controls that provide for accountability and 
direction. As such, we have proposed the creation of a Pacific 
Northwest Inter-Tribal Law Enforcement Mutual Aid Program (ITLEMAP) 
would create the same type of system for Indian Country. This program 
will also create the transparency of operation that is currently 
missing in the current BIA drug enforcement and law enforcement 
programs.
    Every time there is a law enforcement problem in Indian Country, 
everyone looks to outside agencies for a solution. I am saying that 
given the funding, personnel, access to programs, the ability to submit 
cases directly to the U.S. Attorney's Office, and the ability to 
receive federal deputations for our officers and our state and local 
partners, Tribal Police organizations would be able to handle most of 
the situations we currently face.

    The Chairman. Mr. Smith, thank you very much.
    Mr. Mousseau, we are trying to determine now when the votes 
will start on the Floor of the Senate. I want to have 
opportunities to question. I know Senator Johnson will as well.
    Is the Chairman of your Housing Agency here that you wished 
to have say a few words?
    Mr. Mousseau. Yes, he is here and I would like for him to 
say a few words.
    The Chairman. Let's do that. If he would pull up to the 
table. He can pull a chair up to the table with you, if you 
like.
    And would you identify yourself for the record?
    Mr. Iron Cloud. My name is Paul Iron Cloud. I am the Chief 
Executive Officer of the Oglala Sioux Housing Authority.
    And I want to say thank you to you, Senator Dorgan, for 
having this most important oversight hearing.
    And I also want to greet Senator Johnson, who is a Senator 
for the State of South Dakota.
    Things that were said here by these four gentlemen is very 
true. The Oglala Sioux Housing Authority has 1,150 units, and 
we are 60 miles wide and 100 miles long. We have 40 police 
officers, and it seems that every day we are getting more 
violence.
    You know, being a Housing Director, you hear all of the 
things that's going on on the reservation. Tenants calling in 
saying, Paul, I am scared. What can you do? You know, that 
touches my heart very deeply to have our people live in an 
unsafe environment.
    We have some very good families living there, but this gang 
violence is taking over our reservation. There has got to be 
consequences for these lawbreakers. We have bootlegging that is 
there.
    But I just want to mention something briefly here. When we 
had the drug elimination grant back in 2000, we curbed a lot of 
this violence because of tenant patrols, tenant organizations. 
Youth, they had things for the youth to do. And I felt it had a 
big impact on our Indian Housing Authority. And that, I want to 
thank Senator Tim Johnson for introducing the reauthorization 
of the drug elimination grant. That is going to help us curb 
some of this.
    But I think our most important issue now is to get more 
police officers to get a control on our communities, because 
the way it is now, you know, they are having to travel 20 to 30 
miles to answer a call. They don't have the backup that they 
need.
    You know, everybody is living a real tough life at Pine 
Ridge, and I am pretty sure it is everyplace else. The sister 
tribe, Rosebud, is here today, Amos Prue. He had some things to 
say when we made our rounds with the Senate. And he, too, has 
the same problem areas.
    But I feel that when we are an unsafe community, the 
decisions that are made with our people are not good. I think 
if we really put our environment back together where we have a 
safe house, you know, the mentality of our people is going to 
change, I would guarantee you that. The mentality of our people 
will change.
    So we need police officers. We need a court system that is 
going to prosecute these perpetrators. There are just so many 
things that I would like to say, but again, Senator Dorgan, I 
just want to thank you for holding these hearings. I know you 
had one at Standing Rock. I didn't have the opportunity to go, 
but I am looking that you have some oversight hearings maybe in 
South Dakota to hear, to tell what is going on on our 
reservations because it is pretty much the same at the Oglala 
Sioux Tribe has 40,000 plus members, and if we don't get enough 
police officers, you know, there is going to be a disaster.
    And one other thing I want to say is that in one community, 
they were going to start packing guns if something wasn't done. 
So you know, you could really see a total disaster if we don't 
get anything done.
    So I want to thank you for your time.
    The Chairman. Well, let me thank you for your testimony and 
thank all of you for your work.
    Let me mention to you that we are working, so far 
unsuccessfully, but we will be successful on questioning what 
has happened to FBI agents. In 1998, Attorney General Reno 
testified there are 102 FBI agents that are dedicated to Indian 
Country, 102. In 2000 and 2005, Congress appropriated 52 
additional officers, FBI officers for Indian Country. That adds 
up to me to be 154 FBI agents dedicated to Indian Country. In 
fact, there are only 114.
    So somewhere we have 40 FBI agents that disappeared from 
the requirements to participate on Indian Country criminal 
justice issues. And we are trying to determine why. We know why 
we appropriated the money in the Congress. We dedicated these 
positions to Indian law enforcement, and somehow they got 
appropriated to other duties.
    So we are trying to work very hard with the Justice 
Department and FBI to reconcile what happened to the number of 
FBI folks that are supposed to be dedicated to Indian Country 
and to law enforcement in Indian Country.
    Mr. Nissen, I know you were emotional about your brother, 
speaking about your brother being involved in gang activities. 
You did not provide a conclusion for that. Is there a hopeful 
conclusion, I hope, in your family for that?
    Mr. Nissen. Yes, there is actually. It is a sensitive 
subject. I could say, I mean, it could have been a lot worse, 
but he was down that path a while, and it ends up successful. 
He actually just graduated college recently, and he was really 
deep in gang activity five, ten years ago. And you know, it is 
just real emotional because I see it happening to other parts 
of my family, other cousins and everything else. With efforts 
of our family and more grassroots efforts, we were able to 
intervene and he, like I said, just graduated college, so it 
does end good.
    It touches our family and I am more emotional over what is 
happening to our young girls on the reservation and the fact 
that we can't do anything about it because there has been 
threats of their lives, their families' lives. And ultimately, 
like these other gentlemen said, we need more resources, and we 
have 1.4 million acres and three officers covering that area at 
any given time.
    I am hopeful that with some of our efforts and our cultural 
restoration that we are seeing, especially with the younger 
kids, we are seeing that they are realizing who they are. I 
know a lot of the gang incidents are for a sense of identity 
and family. And so we are trying to bring that back into the 
community and help them realize they don't need that in their 
lives.
    But, my brother, he is doing well now.
    The Chairman. Well, thank you very much.
    I assume all of you have seen circumstances like Mr. 
Nissen's brother, who perhaps could have tipped in either 
direction, beginning the activities of a gang and so on, and 
could have tipped in the direction of perhaps losing their 
lives or now being incarcerated in prison for the long term, or 
tipped in the other direction of all of a sudden straightening 
out and graduating from college and having some hope for the 
future.
    I guess I would ask all of you, as you have seen these 
young people, what do you think represents the approach that 
leans over in the right direction for them? What are the things 
on your reservation that can best help them?
    Some people say to me, the most important thing we need at 
the moment, we need youth clubs; we need facilities where they 
have someplace to go and something to do and supervised 
opportunities. Some say that is the most important.
    But as you have watched children on your reservations, some 
move in the wrong directions, some move in the right direction. 
What are the elements that you think best describes success?
    Mr. Smith?
    Mr. Smith. I believe it is the family. Also, what you said 
about the having things for the kids. On our reservation, they 
are trying to get things for kids, but it doesn't pan out. 
There is nothing for the kids to do. But family support, 
support from the social services programs, even police officers 
have talked to some of these gang members, and they have turned 
some of them around. Some have come back. Some got out of it, 
and they have come to me, this aid, this detective or this 
officer had talked with them, gave them some support, got them 
in the right direction, and next thing I know, they are off of 
that. They are going to school. They are working. Their proud 
before the family now.
    So I think it is the support from the community and the 
family that does it.
    The Chairman. Mr. Nissen just described something that 
sounded to me like Mr. Mousseau described, and that is violence 
against women, particularly young girls, by gang members 
apparently almost impervious to any sanctions or worry of being 
caught because there are so few police officers that violent 
crime, beatings and rape will occur with very few arrests.
    Is that what you see, Mr. Mousseau? Was I accurate in 
hearing what you were saying?
    Mr. Mousseau. Yes. We do have a lot of our gang members who 
know how the court system. They know that the law enforcement 
sometimes may take, based on priorities, sometimes an hour for 
the call to be answered, so we have a lot of unreported sexual 
assaults, regular assaults on females, domestic violence is up.
    And if we had something for kids like more for cultural and 
educational programs, I think that is the way to go. In my 
incident where the shooting I was involved in, I used to be a 
teacher prior to being a police officer, and this gang member 
was a student of mine at one time as a young kid. And my next 
dealing with him was that fateful night of the shooting. And it 
went from a nice kid to this.
    So I think we need to all sit back and take a realistic 
look and see what we can do realistically.
    The Chairman. Mr. Cowboy, your assessment of what we can do 
and your assessment of seeing kids fall over on the right side 
of the path, I assume everyone in this panel agrees that we are 
woefully inadequate in the number of law enforcement resources 
that we commit. But it is probably also the case that 
committing more resources, more so-called ``cops on the beat,'' 
more Indian law enforcement, is not by itself going to resolve 
the issue.
    Is that correct, Mr. Cowboy?
    Mr. Cowboy. Thank you, sir.
    I think the two areas is idling. Our kids are idling out 
there and they start to sway in a different direction. The 
other is family. Some of them don't have family support. And in 
order to combat that, even from a law enforcement perspective, 
we have tried student youth academy, but with the lack of 
police personnel, that kind of hinders our effort in providing 
prevention. Even attacking graffiti, you know, the community, 
if there is a lack of police officers, then we really can't get 
in there and start handling some of these issues.
    The Chairman. Let me ask you, is there a strong 
relationship between drugs and gangs, with drugs being a method 
of financing the gangs?
    Mr. Cowboy. I think that is correct, sir. You know, money 
is always the driving force behind all evil. So I think that is 
where, especially with the economic condition on a lot of these 
reservations. I think that is why kids are drawn to that.
    The Chairman. And the supply of drugs is in most cases 
coming from outside the reservation, so law enforcement I am 
sure is trying to track the supply of drugs that comes in to 
the formation of a gang or an existing gang on the reservation. 
What can you tell me about that, any of you, in terms of the 
source of, the supply of drugs? We know, for example, that 
Mexican drug suppliers, particularly in methamphetamine and so 
on, were targeting Indian reservations.
    But Mr. Mousseau?
    Mr. Mousseau. If I can, I would like to ask our gang 
expert, Mr. Forney, to answer that on the basis of what our 
public safety has been.
    Mr. Forney. Thank you, Mr. Chairman.
    To answer your question, one of the things we have is, you 
notice the high number of gang members that we mentioned and 
those are what is fluctuating in and out of the reservation at 
any given time, because most of the drugs that we come across 
do come mainly out of Denver, Omaha and Minneapolis. So we 
don't have a lot of production there.
    We did have some incidents of production of 
methamphetamines on the eastern side of our reservation, but 
most of it is coming out and the drug of choice right now is 
cocaine, which, you know, it's coming in mainly out of Denver 
and Minneapolis and Omaha.
    The Chairman. And are the suppliers of that targeting gang 
activities especially?
    Mr. Forney. Yes, they are coming in, doing a lot of 
recruitment. Like we mentioned in our testimony, I think that a 
lot of it is because of the rural-ness, the jurisdictional 
complexities, the lack of manpower. They want to use it sort of 
like a hub. They can come in and centralize. It is central 
United States, just like we said, the rural-ness of it.
    We don't know if they have a lot of hiding places. With the 
lack of patrol, a lot of drug transactions are taking place. I 
know local law enforcement, like Rapid City, has interacted 
with some large transports. We don't know where that was going 
or where they were coming from.
    The Chairman. Mr. Mousseau, you indicated that you were 
shot by a gang member. Is that correct?
    Mr. Mousseau. Yes.
    The Chairman. And that recently, a female officer on your 
reservation had her arm broken and now she and her family are 
in hiding or at least threatened by gangs on the reservation?
    Mr. Mousseau. Yes, that was over a year ago she had her arm 
broken by a gang member, and up until July 12, where she was in 
a fight for her life when a gang member knocked her down and 
was choking her. So she had to use deadly force on that one, 
and that is where all the death threats do come from.
    And the gang members know by threatening not only our 
police officers, but other reservations as well, because our 
police department lacks commission cards, so we don't fall 
under the protection of a Federal officer.
    The Chairman. Right.
    Mr. Mousseau. So it is non-prosecuted on a Federal level 
and also sometimes on the tribal level, so there is no 
repercussions for them.
    The Chairman. Well, you know, the law enforcement bill that 
we have created, bipartisan and now introduced in the Congress, 
would treat tribal officers as Federal officers, which means 
that in addition to authorizing tribal police to enforce 
Federal laws, the commissions would make it a Federal crime to 
assault or to threaten a tribal police officer, which I think 
would go a long way in trying to begin to address this, so you 
would have the same protections as other law enforcement 
officials.
    Mr. Mousseau. Yes, I want to personally thank you for that 
aspect because I think in Indian Country, this has been 15, 20 
years coming, because we have not had the same protection 
afforded as every other national program.
    Being a officer in Indian Country is a lot different 
because we have to enforce our own tribal laws, as well as 
Federal laws. So we have two sets of laws that we need to 
enforce, as opposed to just city laws.
    The Chairman. Let me ask any of you whether you have had 
success in some alternatives to incarceration. I know that, I 
would guess, having visited a number of detention facilities, 
that if your reservation is like some I have visited, your 
detention facilities are full. Very often, you don't have 
separate facilities for juvenile offenders. And so have you 
achieved success with alternatives, I should say, to 
incarceration? If so, what are those successes?
    Mr. Smith?
    Mr. Smith. We don't have very many successes because there 
aren't very many programs that take these offenders in. There 
is a lot of, you know, gang activity in our reservation, too. 
The same thing that happens over there, happens in Warm 
Springs.
    You know, he talked about deputizations, the BIA 
deputizations that we have been trying to get, too.
    There is a case out of the Umatilla Reservation. The had a 
couple of rapes and a series of assaults over there, and they 
have been trying to get these commissions so that the State 
District Attorney said he would take these cases, but without 
that deputization, he wouldn't do that. So these cases that 
would have went into State court would have been prosecuted, 
but now they are not prosecuted because they don't have the 
deputization.
    So you know, that is kind of a hang-up for all of us here 
and the other tribes. Without that, we can't prosecute them on 
our own. We don't have jurisdiction to go help another tribe 
because of that. So these are the jurisdictional issues that we 
talk about. And if we don't have that, then we can't pursue 
them like we normally would, like in tribal court or in Federal 
court.
    So that is an issue.
    The Chairman. Let me, Mr. Smith, let me ask you a couple of 
questions about the operation called Counting Coup which you 
described. My understanding is that a number of tribal police 
agencies in a region put together some joint funding and banded 
together with their off-reservation gang task forces so that 
you had Indian and non-Indian folks involved in the task force 
to attack gang and drug presence in HUD housing projects on the 
reservation.
    You stated in your testimony here that you received support 
from three judicial districts of the U.S. Attorneys' Office. Is 
that correct?
    Mr. Smith. Yes.
    The Chairman. And you briefed the FBI on what you were 
doing. Because the jurisdiction was operated on and off the 
reservation, you applied to the U.S. Marshals Service for 
deputizations for the officers involved. Correct?
    Mr. Smith. Yes.
    The Chairman. After they reviewed the tribal and local 
police applications and other supporting documents, the U.S. 
Marshals Service authorized the deputizations. So at that 
point, you had a task force that had been deputized by the U.S. 
Marshals Service, approved by the U.S. Attorneys' Office, and 
had been acknowledged by the FBI at least through briefings. Is 
that correct?
    Mr. Smith. Yes, but they weren't approved.
    The Chairman. I understand. I am going to get to that.
    Mr. Smith. Yes.
    The Chairman. And at that point, the tribal and State 
officers were apparently going to be sworn in and they were 
going to be sworn in by whom for what?
    Mr. Smith. For the U.S. Marshals----
    The Chairman. Was that the deputization?
    Mr. Smith. Deputization for U.S. Marshals.
    The Chairman. Okay. So they had been approved, but not yet 
deputized, and now they are about to be deputized. What 
happened?
    Mr. Smith. Well, I received a call saying that----
    The Chairman. From whom?
    Mr. Smith. From my colleague here, Bill Elliot, who works 
with me. He got a call from the U.S. Marshals Service in 
Portland, who called him and said, we came in on a Thursday. We 
sent everybody letters saying, hey, we are going to be sworn in 
on Friday morning. Everybody got there Thursday night. So that 
Friday morning, we were going in to be sworn in. I get a call 
just before five o'clock saying that, hey, the BIA called the 
U.S. Marshals in Portland, said that we didn't have the 
authority to do that, to hold onto the deputizations until they 
worked something out.
    So at that time, the Marshals just held onto them. I called 
the Regional Director, who is Stan Speaks, because he was in 
D.C. at the time. He just met with the BIA. He was on his 
flight going back to Portland when I called him, and I said, 
hey, have you heard this, what I have just explained to you. 
And he said, no. I said here's what happened.
    So he tried to call the BIA and says, hey, what is going 
on? He said we just met no more than 30 minutes ago. Everything 
is going to be fine. Now, there is an issue. And couldn't get 
any response.
    So we kept trying to get a response on why this was 
stopped. We haven't gotten one. We were asked to come up to 
present some gang activity on Indian Country to ONDCP. We did 
that. In that meeting, we brought up what had happened, and 
they were concerned because they said they felt that they 
didn't have the right to pull those deputizations or the 
authority to do so.
    And I said, well, what can we do? I said, we had this task 
force going. We are ready to go. We have operations going, but 
now it is on hold now because we didn't get that.
    And later on again we got a, we finally got a response 
saying that they weren't informed. That is why it wasn't done.
    The Chairman. And were they informed?
    Mr. Smith. Yes, sir.
    The Chairman. And who informed whom about this?
    Mr. Smith. Me and Detective Elliot did.
    The Chairman. Who did you inform?
    Mr. Smith. Pat Ragsdale and Mario Redlegs. Pat Ragsdale is 
the Director of Law Enforcement Services and Mario Redlegs is a 
Supervisor Special Agent in charge of drug enforcement.
    The Chairman. And you informed them personally?
    Mr. Smith. Yes.
    The Chairman. And so they told you then later that you had 
not informed them, and therefore they stopped the deputization?
    Mr. Smith. Yes. We also presented this program that I 
mentioned here, the task force, with all these tribes. 
Everything that we have done in this program we sent copies and 
met with the BIA on it, the deputizations, the task force. We 
did a threat assessment. We presented that to them. Everything 
that we had, we presented, all the tribes that sponsored this 
task force, we gave them all that information of all the 
tribes; a proposal on what the program is about; what we are 
trying to do.
    So everything was reported to them. I felt everything was a 
go.
    The Chairman. Tell me the time frame on this. When was the 
deputization supposed to have occurred?
    Mr. Smith. Let's see, just trying to think.
    The Chairman. This year, last year?
    Mr. Smith. This year.
    The Chairman. This year. Within the last six months?
    Mr. Smith. Yes.
    The Chairman. All right. You have put a portion of this in 
your testimony. Would you complete that with dates and contacts 
so that I can have all the details and resubmit that to the 
Committee? And we will then proceed to ask the BIA what has 
happened here.
    My own view is the BIA is unbelievably bureaucratic. Things 
happen that are never quite explained. And I would like to 
understand what happened here. It just seems to me on its face 
that you were trying to advance law enforcement by connecting 
with off-reservation, reaching an agreement on how to do joint 
operations, getting deputization from the U.S. Marshals 
Service.
    It appears to me that this is exactly the kind of thing 
that should happen and I don't have any idea why it would not 
have been allowed to continue. So I will inquire about it, but 
I will need to have you put dates, places and so on in an 
expanded memorandum.
    Yes, sir?
    Mr. Smith. We have a chart here that I would like to go 
over, to let you see, and have Detective Elliot just brief you 
on it briefly, on the operations that we have going in the gang 
area and drug trafficking.
    The Chairman. All right.
    I will have to ask that--Detective?
    Mr. Elliot. Yes, sir.
    The Chairman. I will ask you to be brief. I understand now 
we are going to start a vote in about five minutes. But I 
appreciate having the opportunity to see this.
    Mr. Elliot. I'll be brief. Actually, in building up our 
justification for this operation Counting Coup, we started 
working up who the drug traffickers are operating on the Warm 
Springs Indian Reservation and the organizational structure. It 
shows the whole criminal structure that was present in that 
they had a chain of command, and this is just one of the ways 
to identify that hierarchy and they had captains, lieutenants, 
street soldiers, and associates carry drugs. And then we also 
developed a connection with a Mexican cartel.
    The Chairman. So is this is the work preparatory to doing 
this joint operation? You actually did the matrix and mapped 
out through investigative work, I assume, what this gang was, 
what the structure was?
    Mr. Elliot. Yes, sir, Mr. Chairman. This was just on Warm 
Springs. We also did this for the off-reservation Tribes. We 
were working with Colville Reservation that also did similar 
workups of their gang structure and who was in charge, who was 
the target, who can make Federal cases in HUD housing areas and 
identify our top 10 gang members and drug traffickers on the 
reservations to break out the organization chart and identify 
the head of its cartel who now lives in Mexico, and trafficks 
methamphetamine down there who has his Warm Springs address. 
These two women right here are Warm Springs members.
    According to the Border Patrol, we have over 400 plus 
crossings between Mexico and Warm Springs. And then also we 
also discovered a lot of imported methamphetamine from 
intelligence briefings with the other tribal police departments 
on names that popped up on traffickers and gang members living 
on Nez Perce and on the reservations all around with tribal or 
interstate connection. That is about it.
    The Chairman. All right. Well, Detective, thank you very 
much. You have obviously done a lot of work. This is not just 
some notion someone has of going after some gang that is 
amorphous. You have actually identified and described the 
structure, and when gangs have structure, that is not just some 
loose association in most cases.
    So I appreciate the work you have done.
    We will be inquiring of the BIA to find out what has 
happened here, but we would like to encourage, in fact, the law 
enforcement bill that we have created actually moves towards 
encouraging the very kinds of things, Mr. Smith, that you were 
engaged in. We want to try to create harmony between on-
reservation and off-reservation activities because it will 
enhance law enforcement on the reservation if we can do that.
    We understand the tribal justice system is not the same as 
the criminal justice system off the reservation, but that 
should not prohibit us from finding ways to cooperate. And the 
legislation that John Harte has worked, along with our staff, 
to put together attempts to try to see if we can find areas of 
cooperation and harmonization, so that is very much in line 
with what we are trying to do.
    I think what you have described here is something of great 
urgency. It is not as if we haven't known that there is 
urgency. I held a hearing just in recent weeks on the Standing 
Rock Indian Reservation once again, and the Bureau of Indian 
Affairs had a surge of additional law enforcement activity 
there. It was very successful. It reduced the violent crime 
rates substantially.
    Now, that surge is over and we are back to a lower level of 
law enforcement activity, which is troublesome, and we will see 
now. I would expect another spike in criminal activity on that 
reservation.
    First and foremost, we have to find a way to reconcile the 
responsibilities of the Federal Government with the actions of 
the Federal Government. As I said when I started, we actually 
have signed the bottom line on treaties and said we promised. 
We actually have created trust responsibilities and said we 
commit ourselves. The fact is, over decades, many decades, the 
Federal Government has not met those promises and not kept its 
trust responsibility.
    And so we are trying very hard on this Committee to find 
ways to improve law enforcement, to begin to push this 
Congress, push the Presidents to meet our trust responsibility 
and meet our obligations.
    The gang activity is a bit of a different subject for us 
because we have had discussions about methamphetamine. We have 
had hearings about teen suicide. We have had hearings about 
violent crime. And in many ways, I assume that gang activity 
threads the needle on all of these same subjects.
    So I appreciate those of you who work in law enforcement 
every day, that you came here to tell us your experience. What 
I would like to do is this. I would like to ask you as you go 
back to your reservations and continue your work, if you would 
take a look at your testimony that you have submitted today and 
add that which you might think would be helpful to us, and what 
would you do if you had additional resources to invest, 
particularly in youth on your reservation?
    How would you best invest those resources into the lives of 
young people on the reservation that you believe would move 
them in a direction that is counter towards gang activity? That 
would be very helpful to us, and frankly, you do this all day 
every day. It is what you have committed your lives to do, and 
I think you could be very, very helpful to this Committee in 
trying to evaluate the investment in youth that might be most 
productive.
    I am going to end the hearing at that point, and I will 
tell those who are in the audience and others that we will keep 
the hearing record open for two weeks, and those who wish to 
submit written testimony are welcome to do so, to add to the 
permanent record of this Committee.
    I thank the witnesses for the hearing. This hearing is 
adjourned.
    [Whereupon, at 3:30 p.m., the Committee was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Mr. Chairman, thank you for your continued leadership of this 
Committee and your dedication to finding ways to help Native America 
fight reservation crime and in particular the growing influence of 
gangs.
    I would like to begin by welcoming Brian Nissan, a member of the 
Colville Tribal Council. Brian traveled 3,000 miles discuss his, and 
the Colville tribes' efforts to combat the influence of gangs on their 
reservation.
    Over the last five years, the Colville tribal police have seen a 
large increase in gang activity on the reservation and have document 
the presence of at least six distinct gangs. More recently the tribe 
has had to deal with shocking incidences of violence between rival 
gangs with limited resources.
    At any given time there are only three Bureau of Indian Affairs 
officers available to cover the tribes nearly 2,300 square mile 
reservation.
    I know that the Colville tribe has implemented culturally 
appropriate programs in their schools to help keep their youth from 
becoming involved with gangs, but I also look forward to receiving the 
tribe's recommendations for combating gang violence.
    I would also like to welcome Chief Carmen Smith from the Warm 
Springs Tribe of Oregon. Carmen has been working cooperatively with 
several tribes in my state to combat the drugs and gangs that are 
infesting reservations across the Northwest.
    It is my hope that the Tribal Law and Order Act of 2009, when 
passed, will encourage these kinds of collaborative task forces and 
coalitions.
    In the mean time I will continue to encourage the BIA too support 
tribal initiatives to fight crime on their reservations.
    We are here today to receive testimony on the increased challenges 
tribes face in dealing with gangs, both homegrown and foreign. I 
believe that the Tribal Law and Order Act of 2009, which I co-
sponsored, will play an important role in assisting tribes in combating 
the problem of gangs.
    I am encouraged by all of the efforts these two tribes have taken 
to keep their reservations safe; however, I am concerned that we won't 
be hearing from any witnesses representing the Bureau of Indian Affairs 
or the Department of Justice.
    These two agencies play a hugely significant role in law 
enforcement on reservations yet they are absent today.
    Their absence combined with their recent admission that no 
verifiable data on the rate of violent crimes on Indian reservations 
exists further solidifies my belief that the Tribal Law and Order Act 
of the 2009 needs to be passed into law as soon as possible.
    Once again, my thanks to Chairman Dorgan for his dedication to 
these issues, and I look forward to working with you to enact into law 
the Tribal Law and Order Act of 2009.
                                 ______
                                 
     Prepared Statement of Hon. Ron Wyden, U.S. Senator from Oregon
    I want to thank Chairman Dorgan and the Indian Affairs Committee 
for holding this hearing to examine the increase in gang activity in 
Indian Country. My home state of Oregon has certainly been impacted by 
this problem, and I am especially pleased that the Confederated Tribes 
of Warm Springs are represented here by Police Chief Carmen Smith and 
Detective Bill Elliott. I share with Chief Smith and Detective Elliott 
very serious concerns about activities of organized gangs on Indian 
reservations.
    I am pleased not only that the Committee is devoting attention to 
this issue, but also that other federal agencies are focusing on this 
problem. The Department of Justice (DOJ), Bureau of Indian Affairs 
(BIA), and the Federal Bureau of Investigation (FBI) are all studying 
this issue and working to address it. I applaud the efforts of 
Associate Attorney General Thomas Perrelli to hold a series of regional 
meetings and to organize a national meeting to study the problem and 
formulate a response.
    Already there is a great deal of evidence of that gang activity in 
Indian Country is a serious and increasing problem. The crime rate in 
Indian Country is higher per capita than for any other racial group. In 
Oregon, at least three Tribes have reported experiencing drug-related 
gang activity, including manufacturing, distributing, and selling meth, 
marijuana, and cocaine. The FBI and federal prosecutors report that 
gangs are also responsible for an increase in violent crime on Indian 
reservations, such as beatings, gang rapes, elder abuse, home 
invasions, and drive-by shootings. Gangs use these violent tactics to 
assert authority and terrorize Tribe members.
    There is no doubt that this growing gang problem presents grave 
issues for both Native Americans as well as society beyond Indian 
Country. Gang activity disrupts and endangers the lives of those 
residing in Tribal Housing Authority residences. Gangs are also able to 
use Indian reservations as bases of operation to facilitate drug 
manufacturing and trafficking. It is clear that entrepreneurial drug 
gangs are able to exploit Indian Country due to a lack of tribal law 
enforcement resources, jurisdictional barriers, and other challenges 
that have prevented stronger coordination between local, state, 
federal, and tribal law enforcement agencies.
    As the Native American population has become more centralized, an 
increasing number of tribal members reside in Tribal Housing Authority 
property managed by the Department of Housing and Urban Development 
(HUD). Drug gangs have infiltrated many of these housing developments 
by moving in with residents or by recruiting residents into the gang. 
These public housing communities are now experiencing the same problems 
that affect similar neighborhoods off reservations in urban areas.
    For example, the Warm Springs Tribal Gang Unit has documented 86 
gang members who are currently active on their reservation. Two-thirds 
of the gangs that are active on the Warm Springs reservation have 
members who are residents or live with residents of HUD districts. In 
the West Hills, the Warm Springs HUD district with the highest level of 
violence, gangs have been responsible for assaults, property damage, 
and drive by shootings.
    The dramatic upsurge in the proliferation of street gangs on Indian 
reservations has generated a parallel increase in drug-related violence 
for the Northwest Tribes. Once established, it is very difficult to 
eliminate the gang presence and to end the commission of violent crime 
in these housing developments.
    In addition to using violence to intimidate the community, gangs 
rely upon drug revenues and drug dependency to further control Indian 
reservation residents. Gangs understand that Indian reservations 
provide a vulnerable population that is prone to substance abuse. They 
also realize that Indian reservations present an opportunity to expand 
drug sales without infringing on established turf. The gangs have 
focused their expansion on communities with little or no law 
enforcement presence. They have also targeted youth on reservations, 
often directing activity towards schools, social centers, and 
residential areas where youth are prevalent.
    A growing dynamic associated with gangs and drug trafficking in 
Indian Country in the involvement of Mexican Drug Trafficking 
Organizations (DTOs). A number of Mexican DTOs are using Indian 
reservations to stage their operations. Members of DTOs have taken 
control of residences in tribal housing developments. Most Tribal 
police departments simply lack the resources and capacity to handle the 
problems presented by these DTOs. In addition to being heavily armed 
and very violent, Mexican DTOs pose cultural and language challenges, 
as well as jurisdictional problems, for tribal law enforcement 
agencies. Further, the DTOs move their activities from reservation to 
reservation in order to avoid detection and apprehension, and to 
exploit the inability of local, state, and federal law enforcement 
authorities to operate on Tribal lands.
    To help combat this growing problem, I support the establishment of 
an Inter-Tribal Law Enforcement Mutual Aid Program (ITLEMAP) patterned 
on the HIDTA model, but tailored to meet the challenges confronting 
Indian tribes. This program would enable tribal law enforcement 
agencies to pool resources and information, and would allow gang and 
drug issues in Indian Country to be addressed at a regional level. Just 
as HIDTA has proven to be a successful tool for non-tribal law 
enforcement, I believe ITLEMAP would help tribes tackle these 
challenges that are not isolated, but span reservations across the 
Northwest.
    I want to commend the exceptional effort put forward by more than 
20 tribes in Oregon, Washington, and Idaho to design ITLEMAP. I 
especially want to recognize Chief Smith and Detective Elliot for their 
leadership, without which this proposal would not have been possible. 
Reaching agreement on the vexing problems that had to be resolved in 
order to formulate this proposal was a daunting challenge. ITLEMAP 
demonstrates that tribal law enforcement agencies not only have the 
capacity to cooperate across multiple Indian reservation and state 
boundaries but also understand the multi-faceted approach needed to 
address serious gang and drug issues.
    If implemented, ITLEMAP would provide organization, funding, and 
personnel to tribal law enforcement efforts across the Pacific 
Northwest. It would allow tribes to address the pressing criminal 
challenges discussed at this hearing: gangs, drug manufacturing and 
trafficking, violent crime, and the general lack of manpower in Indian 
Country. ITLEMAP would give tribal law enforcement agencies expanded 
capacities such as specially-trained tactical units, temporary force 
enhancement, targeted investigations, and dedicated analytical 
assistance.
    ITLEMAP would provide trained regional tactical response units 
capable of handling critical incident events, border security, and 
counter-drug operations such as marijuana surveillance and eradication 
efforts. This program would allow tribal police agencies to assist one 
another on large, complex violent crime or narcotics investigations, 
and to share information with each other in a way that facilitates 
investigations and enhances officer safety.
    As stated, ITLEMAP is patterned on HIDTA, which provides states 
with an analytical division designed to support drug based 
investigation, and disseminate intelligence to agencies that may be 
affected by organized DTOs. Under the HIDTA model, the program provides 
specific funding for initiatives submitted by participating agencies. 
Each initiative receives the assistance of the HIDTA analytical 
division to build the funding justification and track the spending and 
results. The analytical division consolidates all of the data and 
intelligence to assess necessary funding levels and determine where 
increased funds are justified.
    While based on HIDTA, ITLEMAP is tailored to meet tribal law 
enforcement needs. It would provide tribal officers with the authority 
to work in all Tribal jurisdictions in the region. They would be able 
to assist at the request and consent of the affected reservation, 
provide short-term manpower support, technical support, and criminal 
analysis support. Already tribal officers have begun to work together 
on projects including grants, aviation, equipment, and training. 
Officers are working to establish teams that could locate gang members, 
conduct surveillance and arrests, and carry out eradication operations.
    The collaborative effort of all participating Tribal enforcement 
agencies will build on the strength of the regional law enforcement 
community. This program, if funded, could be easily replicated in other 
regions and would contribute to the overall strength of Indian Country. 
However, establishing this program will be expensive. Implementing 
ITLEMAP would costs tribes well over $100,000 a year. I believe serious 
nature of the gang and drug problems that exist in Indian Country 
justify federal expenditures to help fund ITLEMAP. I encourage the 
committee, BIA, and DOJ to work together to help facilitate this effort 
and fund the project.
    Again I want to commend the Chairman for holding this very 
important hearing, and I look forward to working with him and the 
members of the Indian Affairs Committee to address the criminal 
problems posed by gangs and drugs in Indian Country.
                                 ______
                                 
Prepared Statement of W. Patrick Ragsdale, Director, Office of Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Chairman Dorgan, Vice-Chairman Barrasso, and Members of the 
Committee, I am pleased to provide this statement for the record on 
behalf of the Department of the Interior regarding youth gangs in 
Indian country.
    Law enforcement and judicial jurisdiction over criminal activity 
related to gang activity in Indian Country usually overlap with other 
jurisdictions. For example, numerous tribal jurisdictions border towns 
and cities that in many cases are home to significant Indian 
populations.
    The 2007 National Youth Gang Survey, sponsored by the Office of 
Juvenile Justice and Delinquency Prevention, Office of Justice 
Programs, U.S. Department of Justice, reported that there are about 
27,000 youth gangs and about 788,000 identified gang members in 
America. The Federal Bureau of Investigation (FBI) is currently 
conducting a study specifically focused on Indian country that will 
provide more detailed information. However, it is evident that Indian 
country communities face many of the same challenges that other rural 
and urban communities face, and require the same suite of law 
enforcement and community services in order to successfully counter the 
threats posed by increasing gang activity. Law enforcement, the courts, 
social and education services are critical to working with families and 
parents to provide resources to address problems associated with gang 
activity.
    The Bureau of Indian Affairs (BIA) believes there is a direct 
influence between local drug distribution activity in Indian country 
and traffic involving larger drug distribution cartels. These cartels 
play an ancillary and sometimes direct role in the gang activity in 
Indian country.
    The Bureau of Indian Affairs (BIA), working with our federal, 
tribal and state/local partners, is developing an intelligence program 
to improve our ability to address and eliminate gangs and drug cartels 
in Indian country. The Department proposed in the FY 2010 budget to add 
six additional intelligence analysts to improve information gathering 
and the ability to process data to determine proactive measures. The 
proposed analyst positions may be placed at critical locations to work 
in conjunction with other intelligence agencies. The two analyst 
positions currently are located at El Paso Intelligence Center (EPIC) 
in Texas. The two analyst positions at EPIC work in conjunction with 
all of the various federal intelligence agencies to track gang and drug 
activity in the southwest as well as other locations where there is 
known drug cartel activity.
    An effective strategy for dealing with gangs that promote illegal 
activities must be holistic. This means the strategy must encompass 
community involvement through joint efforts by the police, courts, 
schools, and social services. Most importantly, this means developing 
programs that work with the families of youth to afford them more 
constructive activities and alternatives to gangs.
    We must be more aggressive in policing to effectively enforce laws 
that prohibit crime. At the same time, police should be working with 
educators, community service providers and community leaders to address 
the issues that cause increased gang activity and related public safety 
concerns. There is a wealth of information, activities and programs 
that foster this end. The BIA recently advertised and hired a number of 
school resource officers that are or will be specially trained to teach 
and work in schools. We have also placed officers at strategic 
locations throughout the United States to work with other law 
enforcement agencies to combat and interdict criminal drug trafficking. 
We have engaged community policing resources to work with the 
communities to prevent and combat crime.
    Cooperative policing by the various jurisdictions is essential in 
dealing with gangs because gang members seek to exploit perceived gaps 
in law enforcement capacity across jurisdictions. For example, 
communication, coordination and collaboration is vital with other 
jurisdictions that have gang units to share intelligence, develop 
strategies, and work cooperatively to enforce laws. The FBI safe trails 
task forces, the Drug Enforcement Administration, and the U.S. Marshals 
Service Investigative Operations task forces are prime examples of 
effective inter-jurisdictional policing. Police working with Boys and 
Girls Clubs, schools, child welfare and probation services are other 
mechanisms of a total community holistic approach.
    Gang violence and influence as a conduit to other criminal activity 
is a problem. Better policing requires focused attention on all aspects 
of the community. The ability to respond to all types of calls for help 
in the community is critical. Gang activity thrives in situations where 
resources are limited and community support is lacking. A successful 
effort to thwart gang activity will require determined action by 
everyone involved, including law enforcement, parents of youth, 
communities, schools, courts, and federal, tribal, and state/local 
officials.
                                 ______
                                 
   Prepared Statement of Robert B. Cook, President, National Indian 
                         Education Association
    Chairman Dorgan, and Members of the Senate Committee on Indian 
Affairs, thank you for this opportunity to submit testimony on behalf 
of the National Indian Education Association with regard to the 
increase of gang activity in Indian country and its impact in 
education.
    Founded in 1970, the National Indian Education Association is the 
largest organization in the nation dedicated to Native education 
advocacy issues and embraces a membership of nearly 4,000 American 
Indian, Alaska Native and Native Hawaiian educators, tribal leaders, 
school administrators, teachers, elders, parents, and students.
    NIEA makes every effort to advocate for the unique educational and 
culturally related academic needs of Native students. NIEA works to 
ensure that the federal government upholds its responsibility for the 
education of Native students through the provision of direct 
educational services and facilities that are safe and structurally 
sound. This is incumbent upon the trust relationship of the United 
States government and includes the responsibility of ensuring 
educational quality and access. The environment in which instruction 
and educational services are provided is critical to the achievement of 
our students to attain the same academic standards as students nation-
wide.
    The health, well-being, and success of Native children are central 
to tribal sovereignty. Tribal governments are responsible for raising, 
teaching, and caring for children, and Native children in turn form the 
backbone of future tribal success. The National Congress of American 
Indians (NCAI), the National Indian Health Board (NIHB), the National 
Indian Education Association (NIEA), the National Indian Child Welfare 
Association (NICWA), and the National Council of Urban Indian Health 
(NCUIH) brought together their knowledge and expertise to create a 
joint policy agenda for American Indian and Alaska Native children's 
issues. The goal of this initiative is to set forth specific 
recommendations to improve the social, emotional, mental, physical, and 
economic health of children and to improve their learning capacity and 
developmental potential, which in turn will lead to increased self 
esteem and decreased negative lifestyle choices for Native youth.
    This agenda is intended as a tool to assist tribal leaders and 
other policy-makers in creating and implementing a vision for a healthy 
community. It is also intended to guide stakeholders in identifying 
legislation and policy issues that may affect Native children. We 
identify four overarching themes that we believe must be guiding 
principles for improving children's lives and outcomes. Within each 
theme, the agenda sets forth tribal strategies and policy objectives to 
implement these principles. The themes are:

  <bullet> Healthy Lifestyles. Our children must have the resources 
        they need to develop strong self esteem and the life skills 
        needed to usher them into adulthood. One of these resources is 
        good health. Children who are physically and emotionally 
        healthy are more able to play, learn, and work.

  <bullet> Safe and Supportive Environments. Children who have their 
        basic needs met, including love, shelter, food, clothing, and 
        play, are children who are more likely to go on to thrive, 
        explore, learn, and dream. Our children must be protected from 
        unsafe environments and supported by our communities.

  <bullet> Successful Students. Children who are healthy, safe, and 
        nurtured achieve to the best of their abilities. Our children 
        need skilled teachers, sound curricula, and family involvement 
        so they can gain the abilities they need for present and future 
        fulfillment.

  <bullet> Stable Communities. In order to invest in children and the 
        community structures that support them, tribal governments must 
        have options for economic development and flexibility to 
        channel tribal and federal funds into programs that best 
        support their members. The objective is to foster economically 
        self-sufficient communities which can support community 
        programs that provide basic support for children and families.

    In 2004, 22 percent of American Indian and Alaska Native high 
school students reported being threatened or injured with a weapon on 
school grounds in the previous twelve months, compared to 11 percent of 
black, 9 percent of Hispanic, and 8 percent of white students. \1\ As 
reported in A Tangled Web of Justice: American Indian and Alaska Native 
Youth in Federal, State, and Tribal Justice Systems a survey conducted 
in 2000 found that 23 percent of Indian country respondents had active 
youth gangs in their communities. A field study on gangs in the Navajo 
Nation found the spread of youth gangs was facilitated by specific 
structural factors in the community including: frequency with which 
families move off and onto the reservation, poverty, substance abuse, 
family dysfunction, housing, and a declining connection to traditional 
cultures. \2\
---------------------------------------------------------------------------
    \1\ U.S. Department of Education, National Center for Education 
Statistics. 2005b. Status and trends in the education of American 
Indians and Alaska Natives (NCES 2005-108). Washington, DC: Government 
Printing Office.
    \2\ Arya, Neelum & Rolnick, Addie C. (2008). A Tangled Web of 
Justice: American Indian and Alaska Native Youth in Federal, State, and 
Tribal Justice Systems, 6. Campaign for Youth Justice.
---------------------------------------------------------------------------
    NIEA, NCAI, NIHB, NICWA, and NCUIH have formulated the following 
recommendations as strategies to comprehensively meet the needs of 
Native children and serve as preventative measures to address and 
reduce gang activity. NIEA supports increased resources for the 
following preventative policies and programs as a means to reduce 
destructive lifestyle choices for Native youth.

  <bullet> Engage in tribally initiated partnerships with community 
        members and nonprofit organizations to offer organized 
        activities for at-risk or delinquent youth, such as Boys and 
        Girls Clubs or elders as mentors.

  <bullet> Invest in alternatives to detention and work to reduce over-
        reliance on secure detention in cases where it is not 
        absolutely necessary. For the majority of delinquent youth, 
        non-detention programs are more effective and economical.

  <bullet> Construct and staff places for youth to spend time after 
        school and during the summer months.

  <bullet> Provide cultural activities and life skills programs that 
        promotes leadership among Native youth.

  <bullet> Create tribal reentry programs which are critical to 
        ensuring that youth coming out of detention can transition back 
        into work or school, rather than falling again into delinquent 
        behavior or crime.

    In the vein of the Native Children's Agenda, NIEA supports 
provisions that make tribes directly eligible for federal juvenile 
justice program funding, including funding for diversion, intervention, 
and rehabilitation services. This includes sufficient funding at the 
Department of Justice and Bureau of Indian Affairs (BIA) available to 
tribes through combined flexible tribal grant programs that combine 
education, preventative, and rehabilitative services. NIEA believes 
that the Bureau of Indian Education (BIE) schools at the Department of 
Interior offer the greatest promise for school based partnerships with 
the tribe and community for addressing gang activity through positive 
Native youth development, prevention and intervention programs. These 
potential programs for partnership include, but are not be limited, to 
the following: Tribal Courts (probation programs for juveniles), child 
protective services, and BIA/Tribal Social Services, BIA/tribal law and 
order, Boys and Girls Clubs, Indian Health Services, and BIA education 
programs such as the Johnson O'Malley program.
    Additionally, NIEA recommends the establishment of an 
Interdepartmental Task Force on Native Youth with a focus similar to 
the Native Children's Agenda that will focus on comprehensively meeting 
the needs of Native youth. In addition to education issues, a priority 
focus of the Task Force should include gang prevention and intervention 
programs. The Departments of Education, Interior, Health and Human 
Service Justice, and Housing and Urban Development would comprise the 
Interdepartmental Task Force, and would be charged with identifying and 
establishing the levels of need, recommendations to meet the needs, and 
an implementation plan based on the recommendations.
    Finally, intermediate sanctions and alternatives to detention are 
not widely available in tribal communities \3\ and current policies 
result in Native youth over-representation among those youth in 
detention and among youth waived into the adult criminal system, 
despite that these acts are mostly low-level offenses. \4\ As a result, 
Native youth are often forced to leave their communities in order to 
receive rehabilitative services, a practice that is reminiscent of the 
era when Native youth were sent away to federal boarding schools. 
Programs that rehabilitate, treat, and redirect delinquent youth in 
their communities are critical to ensuring that youthful misbehavior 
does not lead to dysfunction and criminality in adulthood.
---------------------------------------------------------------------------
    \3\ Arya, Neelum & Rolnick, Addie C. at 14.
    \4\ Id. at 8, 20-24.
---------------------------------------------------------------------------
    In conclusion, NIEA thanks the Committee for their attention to 
this increasing problem in Indian country and encourages the Committee 
to support legislation that provides for increased federal resources in 
preventative programs and policies.
                                 ______
                                 
                Prepared Statement of the Puyallup Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
  Prepared Statement of Marty Shuravloff, Chairman, National American 
                         Indian Housing Council
Introduction
    On behalf of the National American Indian Housing Council (NAIHC), 
I am pleased to submit the following statement to the Committee on 
Indian Affairs for the hearing record regarding its July 30, 2009, 
Oversight Hearing on Increased Gang Activity in Indian Country.
    As the Committee knows, I serve as the Executive Director of the 
Kodiak Island Housing Authority in Kodiak, Alaska. I am an enrolled 
member of the Lesnoi Village, Kodiak Island, Alaska. I am also the 
Chairman of the National American Indian Housing Council (NAIHC).
    The National American Indian Housing Council was founded in 1974 to 
support and advocate for tribes and tribally designated housing 
entities (TDHEs), and for 35 years, the NAIHC has worked to assist 
Indian tribes achieve their objectives of providing housing, housing-
related infrastructure, and community development for their members.
    The NAIHC is the only national Indian organization whose sole 
mission is to represent Native American housing interests throughout 
the Nation. The NAIHC consists of 267 members representing 460 Indian 
tribes in the lower 48 states and the State of Alaska. I am pleased to 
report to the Committee that in 2008, the Department of Hawaiian 
Homelands (DHHL) became an active and voting member of the NAIHC and we 
continue to work with the DHHL on issues of concern to their members.
    At the outset, I would like to thank the Chairman, Vice Chairman 
and the Committee for holding this Oversight Hearing to Examine the 
Increase of Gang Activity in Indian Country. It is a sad but well-known 
fact that even before the collapse of the American housing and 
financial sectors in the fall of 2008, most American Indian and Alaska 
Native communities were plagued by extraordinarily high unemployment 
and poverty rates. These conditions, combined with geographical 
remoteness and scarce law enforcement resources, have made Native 
American communities ripe for crime and drug-related activity. A 
parallel development in our communities is the proliferation of gang 
activity and other criminal behavior.
    I would also like to thank Chairman Dorgan for his leadership on 
tribal housing issues, which he has consistently recognized as the key 
to improved health and broad economic development in Native America. 
The year 2008 was a landmark year for Indian Country and Indian 
Housing, in particular, as the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) was reauthorized and updated to 
provide tribes and Native American communities with new and creative 
tools necessary to develop culturally relevant, safe, decent and 
affordable housing for Native people.
    While we celebrate the hope that NAHASDA presents us for improving 
the quality of life and living conditions for Native Americans, we must 
not lose sight of the stark conditions that still exist on most Indian 
reservations, in most Alaska Native communities, and on Hawaiian Home 
Lands. Housing conditions in Native communities compare very 
unfavorably with those of other Americans. An estimated 200,000 housing 
units are needed immediately just to meet current demand, and we 
estimate that there are approximately 90,000 Native families that are 
either homeless or under-housed and living in overcrowded situations. A 
large percentage of existing homes are in great need of rehabilitation, 
repair and weatherization. Economic conditions are even worse: 
unemployment rates on Indian reservations, even before the current 
recessionary period, were typically well over 50 percent and in some 
places as high as 80 percent.
    Against this backdrop, NAIHC presents the following perspectives 
and recommendations to improve housing and living conditions for Native 
Americans by taking proactive and creative approaches to crime and drug 
activity in Native communities.
The Indian Housing Block Grant
    The Indian Housing Block Grant (IHBG) is the central feature of the 
NAHASDA and is the single largest Federal source of capital for housing 
development, housing-related infrastructure, and home repair and 
maintenance in Indian Country. Current funding levels do not meet all 
tribal housing needs and have not kept pace with increasing costs of 
construction materials, energy costs, and other inflationary factors 
since 1997. In fact, Federal funding for the IHBG has been relatively 
flat since Fiscal Year 2002 and with increasing housing demands and the 
erosion in purchasing power caused by inflation, Native communities 
have been hard hit by this failure of Congress to appropriate 
sufficient funding.
    The NAHASDA statute contains a definition of the term ``eligible 
affordable housing activities'' and lists those activities that may be 
undertaken with NAHASDA assistance including new construction, 
rehabilitation, acquisition, infrastructure, and various support 
services. Housing assisted with these funds may be either for rental 
units or for homeownership. NAHASDA funds can also be used for certain 
types of community facilities if the facilities serve eligible, low-
income residents.
    Housing development in Native American communities involves more 
than simply building dwelling units. Some of these affordable eligible 
activities can be designed to fight crime and drugs in tribal housing. 
The IHBG can also be steered towards crime prevention activities such 
as safety, security and law enforcement measures and activities that 
protect residents of affordable housing from crime. Certain activities, 
with HUD approval, can also be carried out as model activities.
The Use of ``Drug Dogs'' in Native Communities
    One Indian tribe, the Bay Mills Indian Community in Brimley, 
Michigan, identified the growing prevalence of drugs as such a threat 
to their community that it devoted precious housing resources to 
partner with the tribal police. The Bay Mills Housing Authority 
contributed of a portion its IHBG to purchase, train and house a canine 
(K-9) unit and a squad car for the department. Maintaining a drug free 
community as a top priority, the Housing Authority determined that a K-
9 unit is essential in their fight to keep the community safe and drug 
free by patrolling their properties and searching their buildings. The 
community experienced a drop in criminal activities almost immediately. 
In 2005, the officer and his K-9 partner were recognized with an 
``officer of the year'' award.
Law Enforcement Exemption
    Recognizing the value of community policing and the very physical 
presence of law enforcement personnel, the NAHASDA statute authorizes 
waivers of the low-income requirement in cases where the law 
enforcement officer and his or her family would reside in the tribe's 
service area. This provision, contained at 25 U.S.C. Sec. 4131(4), is 
meant to provide housing to such officers and incentivize living in the 
community to deter criminal behavior.
Simple Maintenance and the ``Broken Window Phenomenon''
    One practice that has resulted in deterrence of criminal behavior 
in residential communities is to provide general timely maintenance to 
existing housing structures and undertake such activities as fixing 
broken windows in those units. These maintenance activities demonstrate 
the will of the community to not tolerate eyesores and other failed 
infrastructure and go a long way in preventing vandalism which, once 
begun, can escalate to include more serious property damage and related 
crime.
    Tribal housing authorities are no stranger to the phenomenon and 
devote resources to maintaining housing units from ordinary wear and 
tear which becomes exacerbated by other activities. More resources 
spent on broken windows means less for new home development and other 
tenant services.
Methamphetamine
    Crime and drugs are together fueling increasing disorder and pain 
in Native communities. Perhaps the starkest example of this unholy 
synergy is the proliferation of methamphetamine ``labs'' on Indian 
reservations. Because most American Indian reservations and Alaska 
Native communities are in geographically remote and rural areas, 
methamphetamine producers have built ``meth labs'' in tribal housing 
units. These purveyors of pain are also targeting Indian populations--
especially those tribes that regularly issue per capita payments to 
tribal members--which they view as a solid source of demand for their 
products. In the process, tribal housing resources get diverted into 
training housing personnel to identify meth labs. Scarce resources are 
further diverted to the abatement, clean up and remediation of tribal 
housing contaminated by the toxic chemical stew created by meth labs.
    To help address this growing problem, the NAIHC has offered 
Methamphetamine Awareness and Abatement training to tribal housing 
staff since 2005. The overall goal of that training is to increase 
awareness of the impact that meth has on tribal housing employees, 
tenants, and community quality of life. The abatement section provides 
practical means to help tribal housing staff recognize use and 
trafficking patterns while strengthening proactive response through 
ordinances, inspections, codes and policy. In 2009, meth trainings 
accounted for about 6 percent of our total training sessions, however, 
in 2006, meth trainings were as high as 20 percent of our total 
training sessions and attendance exceeded all other training sessions 
combined that NAIHC offered. While targeted at tribal housing, the 
sessions where often attended by tribal police officers, tribal health 
department staff and other community organizations concerned with the 
meth problem and how to recognize its impacts on their community.
Indian Development Involves Multiple Programs and Agencies
    Since its enactment, NAHASDA has enhanced tribal capacity to 
address the substandard housing and infrastructure conditions by 
encouraging greater self-management of housing programs, greater 
leveraging of scarce IHBG dollars, and greater use of private capital 
through Federal loan guarantee mechanisms. A related program to the 
IHBG is the Indian Community Development Block Grant (ICDBG), which can 
be used to construct law enforcement and justice facilities under 
certain conditions.
    The ICDBG can be used for the development of community facilities 
such as a recreational center, shelter for the homeless or halfway 
house for drug offenders. It cannot be used for buildings for the 
``general conduct of government'' which means offices where 
legislative, judicial or administrative activities take place. In other 
words, ICDBG can be used for the development of a police station or a 
jail or prison, but not a police headquarters or courthouse.
    Although a great program, few tribes have capacity to apply for the 
grant. Not only is the ICDBG highly competitive, it has a rigorous 
application process. If a tribe decides to apply, Native communities 
that experience higher rates of criminal and drug activity will have to 
decide whether to prioritize addressing the criminal justice needs in 
the community at the expense of other community needs such as a 
hospital, a domestic violence shelter or a convalescent home for 
eldercare.
Department of Justice Programs
    As with many local and state governments, tribes have to 
prioritize, plan and pay for their community development through a 
variety of funding sources including Federal resources. As housing and 
community development go hand in hand, governmental services for Native 
Americans are often associated with tribal housing programs.
    The U.S. Departments of Justice (DOJ) and Housing and Urban 
Development (HUD) joined together to assist in the investigation, 
prosecution, and prevention of violent crimes and drug offenses in 
public and federally assisted housing, including Indian housing. This 
crime prevention effort, known as the Public Housing Safety Initiative 
(PHSI) is executed directly through U.S. Attorneys' Offices, Weed and 
Seed sites and local public housing authorities.
    The PHSI sites develop strategic plans for federal state and local 
law enforcement. Advisory committees comprised law enforcement and 
community-based organizations to provide guidance and leadership in 
developing the plans. The PHSI plans, which may target anything from 
homicide to drugs to guns to gang crime, combine strong enforcement 
with vigorous prosecution efforts. Some crime prevention strategies may 
include programs such as Safe Haven, after-school enrichment 
activities, treatment options, and offender reentry initiatives. Other 
activities include inviting affordable housing developers, public 
housing authorities, and other partners to participate in planning and 
enhancing long-term solutions for the community. The strategic plans 
also include outcome-based performance measures to guide the 
implementation and documentation of these efforts.
The Drug Elimination Program and Indian Housing
    The U.S. Department of Housing and Urban Development's (HUD) Public 
and Indian Housing Drug Elimination Program (PIHDEP) was enacted to 
reduce crime and drug use in public housing communities. PIHDEP was 
created by the Anti-Drug Abuse Act of 1988, and provided funds for 
activities that would reduce or eliminate drug related crime in public 
housing communities. These activities included employing security 
personnel, developing programs to reduce/eliminate the use of drugs, 
funding resident organizations to develop security and drug-abuse 
prevention programs, making physical changes to improve security, and 
reimbursing local police for additional security services. 
Specifically, PIHDEP provided resources for Housing Authorities to work 
with law enforcement, citizens groups, Boys and Girls Clubs, and other 
community-based organizations to develop anti-crime initiatives.
    The total available funding for PIHDEP was $8.2 million in 1988 and 
had risen to $310 million in 2001. The PIHDEP program has been without 
authorization since 2002, but on June 23, 2009 Senator Tim Johnson (D-
SD) introduced the ``Public and Indian Housing Crime and Drug 
Elimination Program Reauthorization Act of 2009'' (S. 1327). The 
legislation would authorize grants and direct payments to Public 
Housing Authorities, Tribally Designated Housing Entities, and Indian 
Housing Authorities for the prevention and elimination of crime and 
drug use in public housing.
    Senator Johnson's bill would reauthorize the PIHDEP through 2014. 
The legislation also sets aside no less than two percent of the funding 
for HUD's Office of Policy Development and Research and requires HUD to 
conduct an effectiveness study on strategies that reduce and prevent 
violent and drug related crime in public and Indian low-income housing.
Conclusion
    In very practical ways, community development in Native American 
communities suffers at the expense of fighting criminal and gang 
activity. Basic physical infrastructure and amenities such as water and 
wastewater infrastructure, electricity, heat and cooling systems, are 
extremely costly endeavors and one reason for the high cost of housing 
development in Native communities. While there are tools available for 
TDHEs to fight crime, devotion of these resources to combat drug and 
criminal activity decreases resources to build homes, community centers 
and housing related infrastructure.
    Thank you for the opportunity to provide the perspectives of the 
NAIHC. Your continued support of Native American communities is truly 
appreciated and the NAIHC is eager to work with the Committee on 
initiatives to improve the Indian housing programs and living 
conditions for America's indigenous people.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                       Hon. Hermis John Mousseau
    Question 1. What role, if any, does [the] tribal housing authority 
play in providing programs for at-risk Indian youth?
    Answer. Oglala Sioux (Lakota) Housing (OSLH) provides financial 
support for youth programs and sports on the Reservation. OSLH has 
committed $600,000 in Recovery Act funds to build nine new playground 
areas, one for each district on the reservation.

    Question 2. How much does it cost the housing authority to repair 
or replace property that has been damaged by gang activity on your 
reservation?
    Answer. OSLH estimates that it has spent $500,000 during the past 
twenty-four months to repair damage from criminal and gang-related 
activities in and around its housing units.

    Question 3. Does your tribal housing authority provide security 
personnel to guard against property damage done by gang activity?
    Answer. OSLH would like to provide more security patrols if it had 
the resources to do so. OSLH has applied for a Community Development 
Block Grant in the amount of $900,000 all of which would be used to 
provide security patrols at its housing developments. In some 
districts, OSLH tenants have taken the initiate to organize volunteer 
safe patrols.

    Question 4. What resources are needed for your housing authority to 
assist tribal law enforcement in curtailing gang activity in HUD 
housing projects?
    Answer. Restoration of the HUD Drug Elimination grants would 
provide OSLH with resources to better support activities for children 
on the Reservation. In addition to funding specific recreational 
activities, such funding might be used to support transportation to and 
from the recently constructed Boys and Girls Club center.
    Other funds would be used to provide more security patrols in the 
outlying communities to assist Tribal law enforcement officers, who are 
often farther away and attempting to patrol much larger areas.
    I feel very strongly that this is an issue that affects the quality 
of life on every reservation in the country. Unless we can do something 
to change the trends of gang activity, too many of our communities will 
be lost to violence and gang-related crimes.
    If I can provide further information or be of other assistance to 
you and the Committee on this most important issue, please let me know.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                              Carmen Smith
    Question 1. Please describe your tribal juvenile justice system.
    Answer. Our juvenile system consist of (2) Associate Judges who 
preside over all juvenile matters that come before the Warm Springs 
Tribal Court and (1) Juvenile Prosecutor who prosecutes all juvenile 
cases that are submitted to the tribal prosecution office.
    We have a Children's Protective Services department, which provides 
for the safety and welfare of the children who have been victims of 
child abuse, neglect and sexual abuse, who have been awarded custody 
through the tribal court. The department has Case Workers who are 
assigned to each individual child's case and works with the Juvenile 
Prosecutor to file petitions in the tribal court. The Case Worker 
advocates for the child as the child goes through the juvenile justice 
system.
    We have a Victims of Crimes department, which provides services to 
families and children who have been victims of adult and juvenile 
crimes. The department has advocates that are assigned to each family 
and helps them with processing paper work for obtaining shelter, food, 
clothing and counseling services. The advocates prepare petitions for 
restraining orders and protective orders through the tribal court. The 
advocates are with the families every step of the way as the families 
go through tribal court system.
    We have the police department who provides for the safety and 
welfare of the children who become victims of child abuse, neglect, 
sexual abuse. The police department has the authority to take children 
out of the home for protective custody and place the children into 
child protective services. The police department investigates all cases 
involving children who have been abused. The officers and detectives 
testify before the juvenile court on all juvenile cases. The police 
department also has a juvenile officer who is assigned to help the 
Juvenile Prosecutor and be a resource officer in the schools. In 
addition, there is one detective under a Children's Justice Act Grant 
to investigate crimes against children.
    The Tribal Court has a Tribal Youth Program Grant from Department 
of Justice which funds one (1) Tribal Youth Coordinator and focuses on 
prevention and intervention of juvenile delinquency and status 
offenses. The Tribes funds a second full time Tribal Youth Coordinator. 
These Coordinators work with the Tribal Juvenile Judges, the Prosecutor 
and the schools to provide one-on-one counseling, tutoring, and group 
activities aimed at educating our youth on cultural traditions to help 
them build strong identities and self-esteem.

    Question 2. Please describe any interaction that your tribe or 
tribal police department has had with the federal juvenile justice 
system.
    Answer. We had a homicide, which the suspect was a 16 year old. The 
case was taken federally. In federal court we were able to have the 
juvenile transferred as an adult for trial. The juvenile was convicted 
of First Degree murder.
    The U.S. Attorney's Office serves on a multidisciplinary team with 
the Tribal Prosecutor and Children's Protective Services to assist with 
protecting children and ensuring that child sex offenders are held 
accountable for their crimes against Warm Springs children.

    Question 3. Please inform the Committee of any recommendations you 
have to improve these systems.
    Answer. The Warm Springs Tribes considers its children to be its 
most important asset and resource, and of course, they hold the keys to 
the Tribes future. Funding at appropriate levels to effective deal with 
the Tribes juvenile issues is very important.
    Prevention services are extremely important to ensure that fewer 
children have to be subjected to the court and juvenile protective 
services and will have the most permanent and long term impacts. Drug 
and alcohol use on the reservation is involved in at least 90 percent 
of the crimes at Warm Springs and effectively reducing this number 
requires that the services to juveniles be expanded and better funded. 
The next level, intervention, is also important as the children who are 
now in the system, and/or are at risk for coming into the system need 
assistance to help them turn their lives around and learn to make 
choices that will have positive impacts on their lives now and in the 
future.
    Unfortunately there are a number of children who are now in the 
system and have been for a number of years. These children are the 
result of long-term neglect and many need strict and close supervision 
to help them overcome the behaviors they have developed as a result of 
neglect and abuse. These children could greatly benefit from a secure 
facility in or near the community that not only provides a good 
education but also provides cultural education so these kids will be 
able to be successful in both the Native and non-Native worlds.
    Funding to help with all of the above is crucial to successfully 
combat juvenile neglect, abuse and delinquency issues. The Warm Springs 
Tribes is experiencing a drastic decline in revenues and has been for 
at least the last ten (10) years. This year the decline is even sharper 
as the fall in hydropower prices took a sudden and unexpected fall. As 
well timber prices have been falling considerably over the past decade. 
Forest products and hydro-power have been the mainstay of tribal 
revenues and of the tribal budget for many years. Although the Tribes 
are working hard to develop other revenue streams, these will not 
positively impact tribal revenues for a number of years.

    Question 4. What alternatives were available to the tribal housing 
entities to address the gang and drug presence in tribal housing 
projects?
    Answer. There were no alternatives for housing other than turning 
to the police for help to address the gang and drug issue.

    Question 5. What role, if any does tribal housing authority play in 
providing programs for at-risk Indian youth?
    Answer. Currently none, funding has been devoted to refurbish 
current units, material costs and other needed programs. Although, 
housing has put in playgrounds for kids to use in several housing areas 
at the cost of $100,000 dollars.

    Question 6. How much does it cost the housing authority to repair 
or replace property that has been damaged by gang activity on your 
reservation?
    Answer. Housing has put about 15,000 to 25,000 dollars for houses 
to repair walls, fixtures, appliances, paint, carpet, etc. Housing has 
spent $20,000 to $25,000 dollars on houses that had heavy meth use in 
the home for Hazmat materials such as heat pumps, duct work to clean 
and sanitize the homes.

    Question 7. Does your tribal housing authority provide security 
personnel to guard against property damage done by gang activity?
    Answer. No. The police provide security through routine patrols.

    Question 8. What resources are needed for your housing authority to 
assist tribal law enforcement in curtailing gang activity in HUD 
housing projects?
    Answer. The resources needed, is to provide funding for the 
``Counting Coup'' project which addresses the gang issues in the HUD 
housing projects. The project can be funded from funds appropriated 
through HUD for the tribal housing authority.

    Question 9. Can you elaborate on how that might be accomplished? 
FBI issue.
    Answer. Yes, right now the Bend Resident Office of the FBI has 
designated crimes in Indian country as a priority. However, has limited 
resources to assign an agent to every major crime that occurs on the 
reservation. We have requested and the FBI has agreed to add more Warm 
Springs detectives to FBI Safe Trails Task Force which designate them 
as federal officers.
    The only other option that would add further assistance in these 
investigations is if the FBI were able to increase their Agent 
compliment in the Bend Resident Office.

                                  <all>

</pre></body></html>
